<html>
<title> - [H.A.S.C. No. 112-12]THE STATUS OF UNITED STATES STRATEGIC FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-12]

 
              THE STATUS OF UNITED STATES STRATEGIC FORCES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 2, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-112                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Kari Bingen, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant
      

                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 2, 2011, The Status of United States Strategic 
  Forces.........................................................     1

Appendix:

Wednesday, March 2, 2011.........................................    35
                              ----------                              

                        WEDNESDAY, MARCH 2, 2011
              THE STATUS OF UNITED STATES STRATEGIC FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     3
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Kehler, Gen. C. Robert, USAF, Commander, United States Strategic 
  Command........................................................     4
Miller, Hon. James N., Ph.D., Principal Deputy Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     6
Payne, Dr. Keith B., Commissioner, Congressional Commission on 
  the Strategic Posture of the United States.....................    25
Perry, Dr. William J., Chairman, Congressional Commission on the 
  Strategic Posture of the United States.........................    24

                                APPENDIX

Prepared Statements:

    Kehler, Gen. C. Robert.......................................    45
    Miller, Hon. James N.........................................    72
    Payne, Dr. Keith B...........................................   104
    Perry, Dr. William J.........................................    92
    Sanchez, Hon. Loretta........................................    42
    Turner, Hon. Michael.........................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Larsen...................................................   117

Questions Submitted by Members Post Hearing:

    Dr. Fleming..................................................   138
    Mr. Franks...................................................   132
    Mr. Heinrich.................................................   135
    Ms. Sanchez..................................................   127
    Mr. Turner...................................................   121
              THE STATUS OF UNITED STATES STRATEGIC FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Wednesday, March 2, 2011.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Welcome to the first subcommittee hearing of 
the 112th Congress. I would like to commend Mr. Langevin on his 
leadership for the 111th Congress and congratulate Ms. Sanchez 
on selection as our new ranking member.
    I would also like to welcome our new members on the 
subcommittee: Mo Brooks, John Fleming, John Garamendi, Scott 
Rigell, Dutch Ruppersberger, Austin Scott and Betty Sutton. 
Glad to have another Ohioan on the subcommittee.
    Since we organized at the end of January, our subcommittee 
has conducted several overview briefings on various aspects of 
the strategic forces portfolio. Just yesterday, officials from 
OSD [Office of the Secretary of Defense] Policy and U.S. 
Strategic Command briefed Members on the administration's 
nuclear policy and posture.
    Today's hearing provides our subcommittee with the 
opportunity to review the status of U.S. strategic forces. 
Since last year's strategic posture hearing a number of notable 
events have occurred, and several new policy documents have 
been released that affect our Nation's strategic posture and 
which ultimately frame the administration's fiscal year 2012 
budget request.
    We will hear from four distinguished witnesses. On our 
first panel we are joined by General Bob Kehler, the new 
Commander of U.S. Strategic Command; and Dr. Jim Miller, 
Principal Deputy Under Secretary of Defense for Policy.
    I believe the committee's oversight is further enhanced 
through additional perspectives outside of the traditional 
Department of Defense witnesses we usually hear from. 
Therefore, I asked Dr. Bill Perry and Dr. Jim Schlesinger, the 
Chairman and Vice Chairman of the U.S. Strategic Posture 
Commission, to provide their views on our Nation's strategic 
posture and the changes that have occurred in the last few 
years. Dr. Schlesinger was unable to join us today. Our 
thoughts are with him, and I appreciate Dr. Keith Payne filling 
in for him.
    I want to thank each of our witnesses for appearing today 
and thank them for their service and leadership.
    I will keep my comments brief to allow ample time for 
Members to ask questions; however, I would like to highlight 
four areas of concern, and I hope our witnesses will address 
these issues here today.
    First, the ink is barely dry on the New START [Strategic 
Arms Reduction Treaty] Treaty, and administration officials are 
already discussing further nuclear force reductions. The 
assumption appears to be that more arms control and deeper cuts 
to U.S. forces is desirable and puts us further down the path 
to a ``world free of nuclear weapons,'' a vision the President 
described in his 2009 Prague speech. We must be careful here. 
The President admitted in that same speech that this vision is 
unlikely to be realized in our lifetimes. We should slow down, 
let the treaty ink be dry, and reassess where we are. Our 
security requirements should guide the feasibility and 
desirability of further reductions, not the other way around.
    One reason for caution is uncertainty. None of us can 
predict the future. China is ``rapidly upgrading its nuclear 
capacity, and is trying to reach parity with Russia and the 
U.S.'' Russia would have us trade away our missile defenses, 
conventional forces, and space capabilities to secure another 
arms control treaty that reduces their tactical nuclear 
weapons.
    In the last few months, NATO [North Atlantic Treaty 
Organization] has reaffirmed that nuclear deterrence is a core 
element of alliance security. In the last week, a senior South 
Korean official suggested the United States reintroduce 
tactical nuclear weapons on the Korean Peninsula for deterrence 
and assurance. There are long-term implications of a rush to 
reduce our nuclear forces that merit thoughtful consideration.
    Second, the Nuclear Posture Review and Section 1251 Report 
made several promises with respect to the modernization of our 
nuclear warheads, delivery systems and infrastructure. Based on 
what I have seen thus far for the fiscal year 2012 budget 
request, I am initially encouraged that the administration 
appears ready to honor these promises for the upcoming year. 
But there is much work to be done, and I remain concerned about 
the long-term commitment to these investments, a responsibility 
shared by both the administration and Congress. We have been 
handed the bill of deferred maintenance. We must be sure that 
these timelines are met and that these promises are kept.
    Third, I have seen solid progress in the administration's 
implementation of the Phased Adaptive Approach, PAA, for 
missile defense in Europe and a significant improvement in 
their engagement of Congress from where we were a year ago. 
This work is commendable. I met with NATO Parliamentarians and 
NATO officials just last week, and I was pleased to see how far 
the missile defense discussion in Europe has advanced from just 
3 years ago.
    Some of us remain concerned, however, about the 
Department's hedging strategy for defense of the homeland in 
case the long-range threat comes earlier or technical issues 
arise in the development of a new SM-3 interceptor. I came away 
from our PAA hearing last December believing that the 
Department's hedging strategy was hollow. I hope our witnesses 
can discuss the progress being made to add detail to the 
hedging strategy outlined in the Ballistic Missile Defense 
Review.
    Lastly, I would ask that our witnesses discuss what they 
see as the key challenges and opportunities in national 
security space. I am particularly concerned about the health of 
our space industrial base and our export control policies, and 
finding the right balance between protecting our national 
security interests and strengthening our industrial capacity.
    It goes without saying that these are challenging economic 
times, and I am certainly committed to working with the 
Department to identify efficiencies and better ways of doing 
business. With that said, we are a Nation fighting two wars, 
and it is our subcommittee's responsibility to ensure our 
strategic forces are kept viable in both the good years and the 
bad.
    I want to thank you again for being with us today, and I 
look forward to your testimony. And with that, let me turn to 
my ranking member, Ms. Sanchez, for her opening comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 39.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Mr. Chairman. Thank you so much, 
Chairman Turner. I look forward to working with you and all the 
members of our subcommittee, and I know that we can accomplish 
a lot this year.
    I would also like to recognize and thank Mr. Langevin for 
his strong and his steady leadership on this subcommittee in 
the last Congress.
    And I want to join Mr. Turner in welcoming our witnesses to 
our first--this is our first, right?--our first strategic 
forces hearing of the 112th Congress. And we look forward to 
hearing from the general and from Dr. Miller to examine the 
strategic posture of the United States and our strategic 
forces, including our nuclear weapons programs, our missile 
defense systems, and our military space programs.
    I have already had an opportunity to meet with you and I am 
sorry, General, that you were a little delayed today, and we 
didn't get a chance to talk, but I am sure that we will get to 
talk privately about some of the issues that we might have.
    I would also like to thank Dr. Perry and Dr. Payne, who 
provide their views in the context of the recommendations made 
by the Congressional Commission on the Strategic Posture of the 
U.S. And I am also sorry that the Secretary could not join us 
today.
    In April 2009, President Obama committed to working toward 
a world free of nuclear weapons, and last year the 
administration took several important steps to implement 
progress toward that long-term vision and to provide guidance 
with regard to our strategic forces.
    First on the nuclear forces, the President announced his 
Nuclear Posture Review in April last year, which outlined a 
plan to reduce the role and the number of nuclear weapons, 
while committing to maintaining our nuclear deterrent to 
reliably defend our country and our allies. And so that 
blueprint addressed the most pressing threats, I think, to U.S. 
security, the spread of nuclear weapons to other countries and 
to terrorists, and I know I worked quite a few years now being 
on this committee in trying to move part of that forward.
    But I am concerned that programs that underpin the 
maintenance of our nuclear deterrent and urgent 
nonproliferation efforts didn't receive the fiscal year 2011 
requested level of funding in the House-passed continuing 
resolution. And I know that myself and some of my fellow 
Democratic colleagues submitted to Chairman Ryan a letter 
talking to him about the concerns of those cuts and stressing 
the importance of strengthening this country's nuclear threat 
reduction efforts, especially with the work that is carried out 
at Lawrence Livermore, Los Alamos, and Sandia National 
Laboratories. I think those are very important efforts in order 
to bring down the risk of nuclear terrorism, and I think it 
also helps us to maintain a strong deterrent.
    So I am pleased that the administration, in particular, 
completed and that the Senate passed the New START Treaty with 
Russia. I think that was, of course, one of the most important 
things that we had on our list. It has been able to reset, I 
think, our relations with Russia.
    You know, I have a lot more in my opening statement, Mr. 
Chairman, but I do know that votes are coming up, and so I will 
submit the rest of it for the record. But I had already 
expressed to Dr. Miller yesterday some of my concerns and my 
questions. And I hope that I will get to talk to the general, 
too, and hopefully with our 5 minutes today we will get more 
information out of the both of you. So thank you for being with 
us. And with that I look forward to the discussion.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 42.]
    Mr. Turner. Thank you. That certainly is very kind of you.
    Each of our witnesses will receive 5 minutes to give a 
summary of their opening statement, and we will then proceed 
for Members' questions, and then we will go to our second 
panel. The committee has received your full written statements 
and, without objection, those statements will be made a part of 
the hearing record.
    We will begin with General Kehler. The floor is yours.

  STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Kehler. Chairman Turner, Ranking Member Sanchez, 
members of the subcommittee, thank you for the opportunity to 
present my views on United States Strategic Command's missions 
and priorities.
    I am privileged and humbled to appear today for the first 
time as Commander of Strategic Command. I am also pleased to 
appear with Dr. Jim Miller, a great colleague, with whom I look 
forward to working in the coming years.
    Today's national security landscape is marked by protracted 
conflict, constant change, and enormous complexity. We are 
facing a significantly different operating environment than 
those we have experienced in the past--an operating environment 
that is characterized by extraordinary technological advances; 
rapid changes in the number and type of actors; and hybrid 
combinations of strategies, tactics, and weapons.
    Of the threats we face, weapons of mass destruction clearly 
represent the greatest threat to the American people, 
particularly when pursued or possessed by violent extremists or 
state proliferators. To deal with this environment demands 
faster, more comprehensive awareness; strategic thinking; 
flexible planning; decentralized execution; rapid innovation; 
and unprecedented information sharing.
    Our mission remains clear: To detect, deter and prevent 
attacks against the United States, and to join with the other 
combatant commands to defend the Nation should deterrence fail. 
STRATCOM's [United States Strategic Command] first priority is 
to deter nuclear attack on the United States and our allies. As 
we implement the New START Treaty, we are committed to 
maintaining a safe, secure and ready nuclear deterrent. We are 
also the strongest possible advocates in favor of the 
investments that are needed to sustain and modernize the 
nuclear triad and the nuclear weapons complex that underpins 
it.
    While nuclear deterrence is our number one priority, 
STRATCOM also has broader responsibilities in the 21st century. 
Ongoing operations demand our full commitment as well. So, in 
partnership with the other combatant commands, our next 
priority is to improve our plans, procedures, and capabilities 
to address regional problems, especially where those problems 
and capabilities cross regional boundaries. STRATCOM's 
activities to synchronize plans and capabilities for missile 
defense, ISR [intelligence, surveillance and reconnaissance], 
electronic warfare, and combating weapons of mass destruction 
are helping to bring unity of effort to regional operations and 
increased effectiveness to our overall investment.
    Another priority is to improve our capabilities and 
operating concepts in the important civil and national security 
areas of space and cyberspace. Space is increasingly contested, 
congested, and competitive, and its importance to the United 
States goes far beyond national security. Ensuring 
uninterrupted access to space and space-based capabilities, 
improving our awareness of objects and activities in space, and 
enhancing the protection and resilience of our most critical 
systems are all essential objectives. Achieving those 
objectives demands continued investment to improve space 
situational awareness and to sustain our critical space 
capabilities while we also pursue increased opportunities with 
allies and commercial partners.
    Our greatest challenge in cyberspace is to improve our 
ability to operate and defend the DOD [Department of Defense] 
network at network speed, and to make our critical activities 
continue even in the face of adversary attempts to deny or 
disrupt them. STRATCOM and its sub-unified command, USCYBERCOM 
[United States Cyber Command], are working hard to improve our 
organizations and relationships, enhance network situational 
awareness and protection, increase our technical capacity, and 
develop the human capital we need as we look to the future.
    We have much to do, but we also know today's fiscal 
environment demands that we must maximize both mission 
effectiveness and taxpayer value. We will continue our efforts 
to identify every possible place where we can become more 
efficient as we work to become even more effective.
    Finally, we are committed to taking care of our warriors, 
our government civilians, and our families. To this end we will 
fully support the efforts of the services to properly train, 
equip, support, and care for our men and women, and we will 
work diligently to ensure a safe and positive work environment.
    Mr. Chairman, great challenges lie ahead, but so do great 
opportunities. The men and women of STRATCOM perform their 
difficult mission with remarkable skill and dedication every 
minute of every day. I am proud to be associated with them and 
look forward to working with you and the committee as we 
address the important national security issues.
    Thank you again for this opportunity, and I look forward to 
your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 45.]
    Mr. Turner. General Kehler, I want to apologize to you for 
all the conversation going on here, but I am trying to do the 
logistics of our votes, and this is what I have come up with: 
if this is acceptable hopefully to you guys, I am going to hand 
the gavel to Mr. Lamborn, who is going to preside while Dr. 
Miller gives his statement. Ms. Sanchez and I are going to go 
vote and return. During the period of the debate on the motion 
to recommit and the vote on the motion to recommit, we will ask 
our questions. Anybody else on the subcommittee is certainly 
welcome to return with us to hear the answers to those. We will 
then go and vote for the two votes that are remaining, and then 
when this subcommittee reconvenes, they will have their 
opportunity to ask their questions.
    With that, I will be seeing you in a moment. Thank you.

  STATEMENT OF HON. JAMES N. MILLER, PH.D., PRINCIPAL DEPUTY 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Miller. Chairman Turner, Ranking Member Sanchez, as you 
depart, and members of the subcommittee, thank you for the 
opportunity to testify this afternoon. It is a great pleasure 
to join the new Commander of U.S. Strategic Command, General 
Bob Kehler.
    As Chairman Turner alluded to, just over a year ago, DOD 
submitted to Congress the Ballistic Missile Defense Review and, 
soon thereafter, the Nuclear Posture Review. And along with the 
Office of the Director of National Intelligence, we recently 
submitted the first-ever National Security Space Strategy to 
complete the congressional requirement for a space posture 
review.
    My prepared statement summarizes the progress that we have 
made in each of these areas, and I will just touch on the 
highlights in each area.
    On nuclear issues, the administration has made significant 
progress over the past year, including ratification and entry 
into force of a New START Treaty and an updated investment plan 
for nuclear modernization. A key contribution of the New START 
Treaty is its verification regime. The U.S. and Russia will 
exchange initial New START databases no later than March 22nd, 
and this information will help us to better track the status of 
Russian strategic offensive arms. The treaty, as you know, 
allows each side to conduct up to 18 on-site inspections per 
year. These inspections will begin after April 5th, and our 
instructors are ready to go.
    DOD's fiscal year 2012 budget reflects our commitment to 
sustain and to modernize our strategic delivery systems, and is 
the front end of an investment of some $125 billion over the 
next 10 years. This includes sustaining the current Ohio-class 
submarines and continuing R&D [research and development] on a 
replacement submarine; sustaining the Trident II D-5 missile; 
preparatory analysis for a follow-on ICBM [intercontinental 
ballistic missile] capability to be fielded in the 2030 time 
frame; developing a new dual-capable Long-Range Standoff 
missile; upgrades to the B-2 to enhance its survivability and 
capabilities; and finally, the development and fielding of a 
new long-range nuclear-capable penetrating bomber, with funding 
starting in fiscal year 2012.
    As you know, the National Nuclear Security Administration, 
part of DOE [Department of Energy], has proposed spending about 
$88 billion over the next 10 years to sustain our nuclear 
arsenal and to modernize infrastructure. The NPR [Nuclear 
Posture Review] identified a number of NNSA [National Nuclear 
Security Administration] facilities that are decades old and 
must be upgraded or replaced to ensure the reliability of our 
nuclear arsenal.
    And as the committee is aware, and as Ranking Member 
Sanchez alluded to, the House-proposed budget bill, H.R. 1, 
would cut NNSA funding in fiscal year 2011 by about 10 percent 
from the President's request. Proposed cuts include over $600 
million from the nonproliferation program, over $300 million 
from nuclear weapons activities, and over $100 million from 
nuclear naval reactors. If enacted, these cuts will delay 
needed investments, they will drive up program costs, they will 
reduce our ability to engage in nonproliferation, and they will 
set back our efforts to implement the Nuclear Posture Review.
    As we look to the future, Conventional Prompt Global Strike 
systems offer the possibility of being able to defeat time-
urgent regional threats with rapidly executed high-precision 
attacks without having to use nuclear weapons. Such 
capabilities would increase the options available to the 
President.
    DOD is currently focusing in particular on conventionally 
armed long-range missile systems that would fly a non-ballistic 
trajectory, so-called boost-glide systems. Such systems could 
steer around countries to avoid overflight, and have flight 
trajectories clearly distinguishable from an ICBM or SLBM 
[submarine-launched ballistic missile]. Such systems would not 
be considered to be ``new kinds of strategic offensive arms'' 
for purposes of the New START Treaty, and so would not be 
accountable. DOD has proposed investing about $2 billion 
between now and 2016 for research and development of these 
types of systems.
    Turn now to missile defenses. As you know, the U.S. is 
currently protected against limited ICBM attacks, with 30 
ground-based interceptors at Fort Greely, Alaska, and 
Vandenberg Air Force Base in California. The President's fiscal 
year 2012 request provides a substantial investment in the 
defense of our homeland to ensure it remains viable over the 
long term.
    As Mr. Turner alluded to, the United States must also be 
well-hedged against the possibility of rapid threat 
developments or unexpected technical delays in U.S. missile 
defenses. The Department is in the process of finalizing and 
refining its hedging strategy, and I look forward to briefing 
this subcommittee on results soon at a classified level.
    Since the President's announcement of the European Phased 
Adaptive Approach in September 2009, the administration has 
made substantial progress on implementation. We are on track to 
deploy all four phases of the EPAA [European Phased Adaptive 
Approach] and on time. The USS Monterey, a guided-missile 
cruiser equipped for ballistic missile defense, is due to 
depart next week on March 6th from its home port in Norfolk, 
Virginia, for a 6-month mission, and this is the start of Phase 
1 of the EPAA.
    I want to say just a couple of words about missile defense 
cooperation with Russia. Our approach on this topic starts from 
our conviction that NATO must be responsible for defense of 
NATO territory, and Russia should be responsible for defense of 
Russian territory. Our concept is to operate our respective 
missile defense systems independently, but to cooperate by 
steps such as sharing sensor data to improve the ability of 
both systems to defeat missile attacks by regional actors such 
as Iran. As President Obama has stated, this cooperation can 
happen even as we have made clear that the system we intend to 
pursue with Russia will not be a joint system, and it will not 
in any way limit the United States' or NATO's missile defense 
capabilities.
    U.S. space capabilities allow our military to see with 
clarity, communicate with certainty, navigate with accuracy, 
and operate with assurance. And to meet our requirements in 
space, DOD is requesting about $26 billion in fiscal year 2012. 
This includes $3.7 billion for satellite communications, $1.8 
billion for missile warning, $1.7 billion for a GPS [Global 
Positioning System] constellation, and a number of other 
investments.
    There are currently more than 22,000 trackable man-made 
objects in space of 10 centimeters or more, and many tens or 
hundreds of thousands of smaller objects, but potentially large 
enough to damage a satellite, and to deal with this increasing 
congestion in space, DOD is taking a number of steps. We are 
expanding sharing of space situational awareness data to 
increase transparency and cooperation. We are looking at how to 
transform the Joint Space Operations Center at Vandenberg Air 
Force Base, California, into a combined space operation center 
operated with international parties, and the administration is 
currently closely evaluating the European Union's proposed 
International Code of Conduct for Outer Space Activities as a 
potentially useful set of guidelines for safe activity in 
space.
    Finally, the United States is developing a range of 
capabilities, plans, and options to deter, defend against, and, 
if necessary, defeat efforts to interfere with or attack U.S. 
or allied space systems. And I would like to make clear that 
while U.S. responses to interference or attack on space systems 
must be proportional and in accordance with the law of armed 
conflict, our responses would not necessarily be limited to the 
space domain.
    So in conclusion, reducing strategic risks to the United 
States and sustaining key U.S. strategic capabilities are long-
term challenges that will require support from a succession of 
administrations and Congresses. Success will clearly require 
developing and sustaining bipartisan consensus on key issues, 
and I am very pleased to have the opportunity today to continue 
that engagement, and I look forward to your questions. Thank 
you.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 72.]
    Mr. Lamborn [presiding]. Thank you, Dr. Miller, and thank 
you, General Kehler, for your testimony. We know your time is 
very valuable, and so we thank you for your patience and 
flexibility while we go over and vote and then come back, 
because we do want to hear your responses to our questions. So 
we will be in recess until Chairman Turner returns.
    [Recess.]
    Mr. Turner [presiding]. Well, thank you for your patience 
during votes. We are hoping to keep this efficient and moving. 
That is why we are doing this in shifts. And I appreciate you 
gentlemen giving us your patience.
    What we will do is the ranking member and myself, we will 
ask our questions. I think we should have about 15 or 20 
minutes. And then we will go for the next two votes and then 
return with the other Members for the purpose of addressing 
additional questions, and then turn to our second panel.
    I obviously have questions for both of you. Dr. Miller, I 
will start with you. In my opening statement I made a broad 
construct of the issues that I am concerned about, and I want 
to give you an opportunity to respond to those. I basically put 
them into three categories for the purposes of this question.
    I am very concerned, I think as are others, that the 
President's concept of a world without nuclear weapons or going 
to zero can be a pressure for driving policy instead of the 
real threat or deterrent assessment driving policy. Now, that 
is not to say that the concept of a world without nuclear 
weapons or the concept of zero is not something that we all 
would aspire to, and it is certainly not to say that there 
isn't room for the types of reductions that we have seen in New 
START or issues of trying to look to what is an appropriate 
shape of our strategic posture. But ensuring that those two 
things are disconnected, that we don't have the pressure of 
going to zero driving these issues, is a concern, I think, that 
many people have.
    We had New START, and the Senate made clear that as we 
looked to issues of further reductions, that we had to look to 
Russia's tactical nuclear weapons. One of the points that I 
made when we had our conversation is that when we have a review 
of our deterrence, we have to have a concept of what we are 
deterring. We cannot merely do an assessment of our posture 
without the concept of what are we deterring. That means that 
we have to both identify who it is that we are deterring, and 
what their assets are, and what is necessary for deterring it.
    I am aware, as we have discussed, that NATO is also 
undertaking a deterrence review, and I have concerns there as 
well that we not want a political deterrence review, but a real 
policy and substantive technical review of both the needs of 
NATO and the concepts of what exactly we are deterring.
    I would like for you to talk about that for a moment on the 
issues of what are we trying to deter, how do we relate, then, 
that to our actual strategic posture, and how you see the 
deterrence review in NATO unfolding.
    Secondly, as I discussed in my opening statement, I am very 
concerned about the concept of the hedge that was identified in 
the Ballistic Missile Defense Review; that in the Phased 
Adaptive Approach, there was this concept that the two-stage 
would be viewed as a hedge. We had a discussion of that in 
another hearing. I know you have additional thoughts on that, 
and I would like to hear them today.
    And I would also like your thoughts on what other 
reductions currently are you looking at from a policy 
perspective? As we take up this issue, as we look at what is 
currently on the table, what do you see ahead of us?
    Dr. Miller.
    Dr. Miller. Thank you, Mr. Chairman.
    The President has talked in the past about the next step we 
intend to take on arms control, so let me start there. And what 
he has said, and what we stated in the NPR as well, was that we 
would look for the next bilateral round with Russia that would 
deal with both deployed and non-deployed nuclear weapons, and 
both strategic and non-strategic nuclear weapons. As you 
alluded to, there are not exactly symmetries in each of those 
categories, but overall there is an approximate parity, and it 
is a useful basis to think about conducting the next round of 
negotiations.
    In terms of the process that we will undertake prior to 
starting those negotiations, step one is to do the hard look at 
our guidance and at the implications of the guidance that comes 
from the White House, that comes from the Secretary and the 
Chairman, that goes to General Kehler, and to understand the 
implications of any revisions in that guidance in terms of what 
is to be deterred by whom.
    As we conduct that work, in parallel, we will be thinking 
about what types of verification regimes will be appropriate 
for a negotiation or a future agreement that really addressed 
the full range of nuclear weapons: deployed, non-deployed, 
strategic, non-strategic. The implications for verification are 
significant and would likely go well beyond what we have in the 
New START Treaty.
    Also in parallel, we need to be consulting with our allies, 
and part of that discussion will be in the context of the 
defense--I am sorry, the Deterrence Defense Policy Review of 
NATO that you alluded to. And that conversation, I think, is 
beginning, is under way, as you saw when you visited. And, from 
our perspective, it is essential that we continue to stick by 
the principles that have guided NATO for many decades, 
including risk sharing and burden sharing, and our 
understanding that as long as nuclear weapons exist, NATO 
should be a nuclear alliance--just as as long as nuclear 
weapons exist, the United States will sustain a safe, secure, 
and effective nuclear arsenal.
    So these activities will be going on to some degree in 
parallel, but just as was the case with the Nuclear Posture 
Review, where we reached key conclusions on what we needed for 
our nuclear posture and what--in terms of numbers and diversity 
of the force and so on, and then took those results to give 
guidance to our negotiators, we similarly will get the guidance 
work done, the assessments done that I talked about for what is 
required for effective deterrence, including strategic 
stability, and in parallel deal with the other issues I alluded 
to, including verification, consultation with allies. We will 
take the time to get it right.
    The timeline that was given by the Senate, as you know, 
sir, was a year from the Senate ratification for us to come 
back with a proposal for engaging Russia on tactical nuclear 
weapons in particular.
    With respect to the hedge, I paid attention at our December 
hearing, and the message was well received that we had not at 
that point articulated sufficiently how the hedge will work, 
under what conditions it would be initiated, and what specific 
responses we would have.
    We have done a lot of work on it, and I have to report 
today that we are not quite there, and I would like to come 
back and give a detailed classified briefing. I would like to 
commit to do so in the next several weeks. Some of the 
potential triggers for invoking the hedge will involve 
classified information, and so I prefer to do that in a 
classified setting in any case.
    I can talk about the elements, but you are already familiar 
with those, including the Missile Field 2, the eight additional 
silos that are being completed. Missile Field 1 is new for this 
year. We are now going to mothball Missile Field 1 rather than, 
essentially, eliminate it, which gives the opportunity for 
deployment of six more interceptors in the future. And I 
understand that we need to explain in more detail and on a 
detailed time limit that we have the specific role of the two-
stage GBI [ground-based interceptor]. I can tell you it 
continues to have a critical role in the hedge, and I would 
just ask your indulgence for several more weeks to come back 
and give details in a classified setting.
    Mr. Turner. Before I go to General Kehler, just to restate 
and give you my concern--not necessary for you to respond at 
this point--but I am very concerned that as we begin the 
deterrence review, or as we begin any review to look at further 
reductions, that it be done in the context of, as I was 
describing, the actual ``what is being deterred.'' We have 
Russia, we have China, we have Iran, we have North Korea, and 
any concept of reducing, especially in Europe, the U.S. 
footprint or the nuclear footprint of NATO as a deterrence must 
take into consideration Russia and the over 5,000 tactical 
nuclear weapons that they have that are in the area, because of 
course NATO is looking to deter Russia. We are looking to deter 
Russia, and China, and Iran, and North Korea. And I don't think 
anybody thinks that the current ratio between those tactical 
nuclear weapons in Russia and what we have at present with NATO 
is an appropriate ratio. They have overwhelming numbers, and I 
think the Senate's direction was, ``address those numbers.'' 
Get Russia to make a concession with respect to the tactical 
weapons. And we certainly don't want to see just unilateral 
reductions on the side of the United States without addressing 
what is that important issue of the threat of those tactical 
nuclear weapons.
    With respect to the hedge, of course, our continued concern 
is that with the Phased Adaptive Approach, the coverage of 
protection to the mainland United States is not to arrive until 
2020. That is in the best-case scenario on the evolution of 
technology. It is possible that the threat could evolve as 
early, as some intelligence reports say, as 2015. That would 
leave a significant gap to the United States, and so that is 
why I appreciate your continued work on the issue of the hedge.
    General Kehler, thank you so much for your continued 
thoughts and, of course, your leadership. One item that we had 
a discussion on was the--on the triad, of looking to the Navy 
and the tube reductions of 20 to 16. There is continued 
discussion in other hearings on the Hill today. I would like 
your thoughts on the reduction of the tubes and what you see 
driving that, how you see it affecting our strategic posture, 
and any other thoughts you have on that.
    General Kehler. Thank you, Mr. Chairman.
    First of all, sir, let me say that, in my mind anyway, the 
discussion of Trident and Ohio-class replacement is really a 
discussion in the context of the need to modernize the entire 
triad. So first of all, I think it is important for us to 
recognize that that is one piece, an important piece, but a 
piece of the decision process that we need to go through.
    Second, the issue of the number of tubes is not a simple 
black and white answer. So let me just comment here for a 
minute. First of all, the issue, in my mind, is the overall 
number of tubes we wind up with at the end, not so much the 
number of tubes per submarine. And second, the issue is, of 
course, we have flexibility and options with how many warheads 
per missile per tube. So that is another consideration that 
enters into this mixture.
    Another consideration that is important to me is the 
overall number of boats and the operational flexibility that we 
have with the overall number of boats, given that some number 
will need to be in maintenance, some number will need to be in 
training, et cetera. So those and many other factors, to 
include a little bit of foresight here in looking ahead to 20 
years from now an anti-submarine warfare environment that the 
Navy will have to operate in, all of those bear on the ultimate 
size, weight, shape, configuration of the follow-on to the 
Ohio.
    At this point, Mr. Chairman, I am not overly troubled by 
going to 16 tubes. As I look at this, given that we have that 
kind of flexibility that I just laid out, given that this is an 
element of the triad, and given that we have some decision 
space here as we go forward to decide on the ultimate number of 
submarines, nothing troubles me operationally here to the 
extent that I would oppose a submarine with 16 tubes. I 
understand the reasons for wanting to have 20, I understand the 
arguments that were made ahead of me, but as I sit here today, 
given the totality of the discussion, I am--as I say, I am not 
overly troubled by 16.
    Now, I don't know that the gavel has been pounded on the 
other side of the river yet with a final decision, but at this 
point I am not overly troubled by 16.
    Mr. Turner. Twenty tubes met STRATCOM's strategic 
requirements?
    General Kehler. Yes, sir.
    Mr. Turner. A troubling aspect that we have is if 20 met 
the requirements, and now we are looking at 16, does 16 meet 
the requirements? And how was it determined that 20 to 16 meets 
the requirements?
    General Kehler. Well, I can't comment on, sort of, the 
acquisition decisions that went on in the background. I don't 
know what those decisions were. But the difference between 20 
and 16, there was also a different number of boats in play. And 
so the overall difference, as I went back and looked at this, 
was not that significant in terms of tubes.
    Mr. Turner. So you are saying 16 will meet STRATCOM's 
requirements?
    General Kehler. Sixteen will meet STRATCOM's requirements, 
given that we are sitting here 20 years in advance. It 
certainly will meet our operational requirements given the size 
of the tube, the performance of the D-5, the ability to upload 
the weapons, because at the end of the day here, the question 
is, will we be able to deliver sufficient weapons with the 
platforms that are available? And this would meet our 
requirements just depending on the weapon upload.
    Mr. Turner. And we look forward to reviewing the analysis 
that says that the difference is sufficient.
    General Kehler. Yes, sir.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, General, thank you, Doctor, for being before us.
    I am going to be going to South Korea in a few weeks, and 
so I am sure I am going to be asked a lot of questions. A South 
Korean press report this week indicated that National Security 
Council WMD [weapons of mass destruction] czar Dr. Gary Samore 
left open the possibility that the U.S. might introduce 
tactical nuclear weapons on the Korean Peninsula if South Korea 
makes such a request.
    The NSC [National Security Council] deputy spokesman 
clarified it afterwards to say that our policy remains to 
support a non-nuclear Korean Peninsula, and that there was no 
plan to change that policy; that tactical weapons are not 
necessary for the defense of South Korea, and that we have no 
plan or intention to return them.
    Would you clarify what our policy is with regard to 
forward-based tactical nuclear weapons, and is the 
administration planning on increasing the number of deployed 
tactical nuclear weapons?
    Dr. Miller. Ma'am, the policy of the administration is to 
continue to have the ability to forward-deploy both tactical 
nuclear weapons and strategic nuclear weapons in the form of 
fighter aircraft, dual-capable aircraft, and in the form of 
bombers.
    With respect to Korea, the clarification of the statement 
is exactly right. Our policy remains to support a non-nuclear 
Korean Peninsula, and the other elements that you discussed are 
exactly right as well.
    What I would like to add--and this is based on past and 
ongoing conversations with our South Korean allies--is that the 
U.S. nuclear umbrella remains firmly over South Korea, and 
neither side believes that on-peninsula deployments are 
necessary to sustain that deterrent.
    Ms. Sanchez. Thank you, Doctor.
    As I stated in my opening comments that New START was what 
I believe is a real change and a reengagement, if you will, 
with Russia. I asked you this yesterday, Doctor, but maybe for 
the record, and, General, if you have any comments, where do 
you see us making further progress with the Russians and--with 
respect to arms reduction, and also with respect to missile 
defense--considering at least in the times that I have been 
over there in recent years, they have been very anxious about 
our whole issue with respect to missile defense, even with the 
phased approach that we have come--again, I understand that 
phased approach was not because of how they viewed this. But 
can you talk a little bit about this engagement in Russia, and 
what are the positives, where do you see us going, and what we 
could do as Congress-people who work on these subjects to 
enhance that relationship?
    Dr. Miller. Let me take a cut and see if General Kehler 
wants to come in as well. In addition to the internal planning 
that we are doing currently to think about future steps in arms 
control with respect to Russia and all the elements that I 
described in responding to Chairman Turner, under the auspices 
of the Tauscher-Ryabkov group headed by, on our side, Under 
Secretary of State Ellen Tauscher, we are initiating 
discussions on the future basis of strategic stability. 
Discussions are just getting under way. We don't expect them to 
result in a negotiated agreement. But what we do want to engage 
the Russians on is what do things look not just in the 2010s 
and so on, but in the 2020s and forward, and what will be the 
basis of deterrence in the future.
    They clearly have expressed concerns about the future 
course of our missile defense deployments, and we have, in all 
venues, come back with a clear statement that we will not 
accept any limitations quantitatively, qualitatively, 
geographically, or otherwise. And so this is part of a 
conversation about how to sustain strategic stability over the 
long term, and I think it is an important conversation both 
with Russia, and different qualitatively and quantitatively, 
but also very important with China. We have not yet had the 
same sort of positive response in terms of willingness to have 
this discussion vis-a-vis China, and we continue to ask for 
that.
    On missile defense cooperation, as I said in my statement, 
we have made clear that we don't see moving forward with a 
joint system, but see moving forward with the possibility of 
cooperation on separate systems. And with respect to NATO, our 
concept is that NATO would defend NATO, Russia would defend 
Russia, and we would look for opportunities to cooperate that 
would be mutually beneficial.
    The Bush administration first proposed the possible use of 
radar data from two Russian radars, one in Armavir and one in 
Qabala. We have looked at those and a couple of others as well, 
and we think that, in fact, some early-warning data from those 
radars could potentially increase the ability, improve the 
ability of our Phased Adaptive Approach to intercept missiles 
into Europe. It is also possible that sensors from the United 
States and from our NATO allies could improve the ability of 
Russia to engage a missile headed toward it from Iran.
    So sharing of sensor data, I think, is the most promising 
initial area. In principle, it is possible that one side could 
intercept a missile that is headed for the other. If you look 
at the geography of a launch from Iran, or elsewhere for that 
matter, the Middle East, there are some trajectories that head 
towards Europe that pass over Russia, and some, conversely, 
that would pass over Europe on its way to Russia.
    So we will look to engage with them on those issues, and a 
foundational activity that we have proposed is to do a joint 
analysis that looks at the architectures and how each side's 
sensors and so forth could assist in the ability of the other 
side to conduct missile defense intercepts.
    Our next meeting with them I will co-chair in just a couple 
of weeks, and we will look to move the ball forward on these 
issues. We think it is in both the U.S. and Russian interests 
to have some real cooperation in this area.
    Ms. Sanchez. Thank you.
    General, do you have anything to add?
    General Kehler. Congresswoman Sanchez, I do. I would just 
add that over the years--since the end of the Cold War in 
particular, but even prior to that--we have found that there is 
extraordinary value in having military-to-military contact with 
the Russians at all levels on lots of issues. We find that 
those engagements typically lead to better understanding, they 
lead to less confusion at some times and, as we look to the 
future, we see a lot of opportunities here that we might be 
able to engage more with the Russians at a mil-to-mil level on 
a wide variety of issues.
    In addition, as Dr. Miller said, there have been some 
initiatives. You know, the Secretary of Defense visited China 
recently and, similarly we see some value there in military-to-
military contact.
    Ms. Sanchez. Thank you.
    Because of the time constraints, I am going to hold on to 
my questions, and maybe we will allow the chance for the others 
to ask, Mr. Chairman.
    Mr. Turner. Okay. Thank you so much.
    We are going to adjourn. Before we do, I do have one issue 
I want to clarify first with respect to the questions I was 
asking.
    It is my understanding that the NATO deterrence review 
could recommend a reduction in the U.S. nuclear weapons that 
are in Europe. I want to make certain I am not walking away 
with a misunderstanding on that. If the gentleman at this time 
would correct me if I am mistaken?
    Then, coupled with that, my concern being I would expect, 
and I think the Senate's direction would expect, that if that 
were to occur, that it would be done in conjunction with a 
concession or reduction overall in the Russian tactical nuclear 
weapons. Gentlemen?
    Dr. Miller. Chairman Turner, I would not want to prejudge 
what the outcome of the review would be. We have views, 
obviously, within the administration about its future 
direction, both its focus and desired outcomes, but----
    Mr. Turner. You would not disagree that it could recommend 
reductions?
    Dr. Miller. Yes.
    Mr. Turner. And then ergo to my statement, I would hope 
that would occur within the context of reductions and 
concessions in tactical nuclear weapons from Russia.
    Gentlemen, with that we are going to adjourn for these two 
votes, and then we will be returning for questions from the 
other Members. Thank you.
    [Recess.]
    Mr. Turner. I call the subcommittee back to order.
    We will begin our round of questioning, 5 minutes, to Mr. 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. I hope the questions 
I am going to bring forth haven't already been asked, because I 
missed some of our meeting with our truncated schedule here.
    General Kehler, and hopefully this isn't going to become an 
issue, but press reports suggest that some in our 
administration would like to sign on to the European Union's 
Code of Conduct concerning space. What are the advantages and 
disadvantages of signing on to such a code, what national 
security considerations should the Department take into account 
as it reviews such a proposal, and would this Code of Conduct 
require any changes in U.S. policy or approaches to space?
    And I know you are dealing with STRATCOM right now, but you 
obviously have an extensive space background when you were in 
Colorado Springs, and we thank you for your service in that 
capacity as well.
    General Kehler. Congressman, let me just set the scene for 
a second. In 1957, there was essentially one object on orbit, 
and it was Sputnik. Here we are in 2011, and we catalog well 
over 20,000 objects. It depends on the day whether it is 20,000 
or 21,000 or 22,000, but the number is growing. There are 
objects there beyond what we are able to maintain in our 
catalog that NASA has estimated probably 10 times the number of 
objects are there than what we actually see. So this issue of 
space becoming more congested is a real issue.
    There are some rules that exist today, but they are very 
broad, and our view, at least at STRATCOM, is that it is time 
for us to embrace this issue in some way. Now, there are 
caveats that have to be added to this, of course, and there are 
operational considerations that we would have to make sure that 
are being taken account of as we go forward.
    But my view is that it is time for us to have this 
engagement. It is time for us to be on the road of looking at 
what makes sense in terms of best practices. Whether we call 
that a code of conduct or whether we actually embrace the EU 
Code of Conduct is something we are working and making our 
inputs known in the policy world. But fundamentally our view at 
STRATCOM is that we should be on this road looking to put 
appropriate rules of the road in place that will help us and 
will actually help everyone.
    This is consistent with our new national space policy, it 
is consistent with the new National Security Space Strategy, 
and operationally we think it is consistent with the plans that 
we have as well.
    Mr. Lamborn. Okay. Thank you.
    Now, for either or both of you, when the White House 
announced the European Phased Adaptive Approach in 2009, it 
said the new approach was based upon an assumption that the 
long-range missile threat was ``slower to develop.'' However, 
several Defense officials, including Secretary Gates and 
Admiral Mullen, have recently expressed concern about the pace 
of Iran's ICBM and nuclear developments.
    So my question is this: Are you concerned that Iran's 
missile and nuclear programs are developing faster than the 
Intelligence Community previously assessed?
    Dr. Miller. Mr. Lamborn, I believe when I testified here in 
December, I talked through the then intelligence assessment 
portions which have been made public. I talked about the 
possibility of an Iranian long-range missile capability by 
2015. So, in fact, we have seen Iran continue to pursue its 
missile program, including through the space launch system 
Safir and others. We have seen advances in that program, and we 
have seen them continue to pursue their nuclear program and at 
least providing the option to go to a nuclear weapons 
capability and not foreclosing that.
    So, I would say if anything since the time of that 
decision, concerns have been reinforced and to some degree 
heightened, and that is one of the reasons that we continue to 
look in detail at what the appropriate hedge should be with 
respect to missile defense.
    General Kehler. Sir, I would add that in the 30 days I have 
been in command, the first set of questions that I started to 
ask about this were, do we have the flexibility to pursue the 
hedge strategy; and the answer is, yes, we are making progress 
in sensors. We have made progress in sensors. In fact, the 
modifications that have been made to some of our early-warning 
radars are now complete. There are others now in progress to be 
in a better position sensor-wise to understand and characterize 
the threat if it were to emerge.
    Of course, we are continuing to build GBIs, so there is 
flexibility there for a decision process that would respond to 
a hedge. There is work going on for the two-stage GBI. There 
are other things in trail here. MDA [Missile Defense Agency] is 
looking at how they would position what they call an IDT [In-
Flight Interceptor Communication System Data Terminal], or it 
is a way to get information to an interceptor that helps the 
interceptor if it is out of radar ranges, et cetera, et cetera. 
They are looking at where they might position additional IDTs.
    So I think I am comfortable from a military perspective 
that the pieces are in place that give the decisionmakers an 
ability to hedge if, in fact, this threat emerges sooner.
    Mr. Lamborn. Thank you both.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    First I want to welcome our witnesses here today. Thank you 
for your testimony.
    Before I begin, I just wanted to mention how much I enjoyed 
working with my colleague Chairman Turner on the Subcommittee 
on Strategic Forces in the last Congress. I had the privilege 
of chairing the subcommittee, and I want to say how grateful I 
am for the opportunity to continue to serve on the subcommittee 
this year with you, Mr. Chairman, and, of course, Ranking 
Member Sanchez, and while also getting a chance to focus more 
on our national cyber efforts as now the ranking member on the 
Emerging Threats and Capabilities Subcommittee.
    So, with that, let me turn to a cyber question. General 
Kehler, Dr. Miller, as we all know, STRATCOM has direct 
authority over the new Cyber Command that stood up last year, 
as you were talking about in your opening statements, and one 
of the concerns that we have had is about the proper 
authorities for the military in cyberspace. We recognize right 
now that of the range of threats that are facing the Nation, 
cyber threats are among the most serious.
    Clearly the NSA [National Security Agency] and CYBERCOM are 
both very capable entities for our intelligence and military 
issues, but many of the threats that we face today as a Nation 
are to civilian-critical infrastructure, such as our electric 
power grid or our financial system.
    My question is if we were undergoing a cyber 9/11 attack, 
what is the capacity of the Department to assist with the 
defense of nationally critical systems, and how is the 
Department's efforts to work more closely with DHS [Department 
of Homeland Security] evolving?
    General Kehler. Sir, let me begin by saying there has been 
a lot of progress made over the last couple of years to bring 
focus inside the Department for sure regarding cyber. The 
stand-up of CYBERCOM, by combining other pieces from throughout 
the Department, has been a big step forward. Getting it to full 
operational capability, although there is certainly much more 
to be done, was a significant step forward. Positioning at Fort 
Meade, which is the center of gravity--center of excellence for 
the country, really--for cyber-related activities, was a 
positive step. So there is progress being made.
    I believe that the memorandum of agreement that was signed 
between the Department of Defense and the Department of 
Homeland Security that begins to outline the relationship 
between the two Departments in just such a scenario has been 
particularly significant.
    There is more work to be done. If you are asking on any 
given day, what is the capacity of the Department to be 
helpful, there are capabilities the Department has. How the 
capabilities are wielded in terms of relationships elsewhere in 
the government and sort of defense support to civil authorities 
and all of the relationships we have carved out elsewhere in 
our military, those steps are still, many of them, in progress. 
So those are high on our to-do list to continue to work our way 
forward.
    Certainly the SECDEF [Secretary of Defense], Secretary 
Lynn, has become a real leader in all of this area. He has been 
very vocal about our need to go forward. And I would tell you, 
while progress has been made, there is much more to do.
    Mr. Langevin. I agree. My concern is that were there a 
cyber
9/11 attack under way, that we haven't worked these things out 
yet, and although we might have the ability to stop it, we 
don't yet have the authorities worked out as to how that would 
happen. And my concern is the left hand wouldn't know what the 
right hand is doing, and we would be doing great danger, 
putting the Nation at great risk, by not having those 
authorities in place.
    General Kehler. Sir, I would just add, my view of this is 
that some of those are now in place. The MOA certainly helps us 
a great deal, but they are not all in place. I think I would 
describe this as still very much a work in progress.
    Mr. Langevin. Let me go to another question before my time 
runs out.
    General Kehler, Dr. Miller, yesterday in our science and 
technology posture hearing on the Emerging Threats and 
Capabilities Subcommittee, Secretary Lemnios, head of the DOD 
Research & Engineering, brought up some of the more promising 
emerging technologies in the field of hypersonics and directed 
energy, from new efforts to Prompt Global Strike, to Airborne 
Laser. Both of these topics have strategic ties.
    Can you comment on what work is being done to evolve these 
technologies into operational concepts and systems under 
USSTRATCOM, and what makes the Department view these 
technologies as potential game changers?
    General Kehler. I will make a comment, and then Dr. Miller 
may want to say something as well.
    But from a STRATCOM perspective, sir, first of all, on 
directed energy, of course, some work continues in terms of 
directed energy and missile defense efforts. That has been 
curtailed significantly, but we have some interest in what is 
residual in that activity.
    Regarding hypersonics, of course, we also have development 
efforts under way for what we are calling Conventional Prompt 
Global Strike, and there is some promising work that has gone 
on, and more to do, that would perhaps give us a real advantage 
here in small numbers for specific targets to give to the 
President some options to go after some kinds of targets 
conventionally that we do not have that option today. So both 
of those are very promising to us from those two standpoints, 
sir.
    Dr. Miller. If I could just add very briefly, as I 
mentioned before, the Department is spending about $2 billion 
over the next 5 years on the hypersonics, in particular on the 
Conventional Prompt Global Strike boost-glide vehicle, and we 
do see a lot of promise there from a policy and operational 
perspective.
    With respect to lasers, with the conclusion that the 
Airborne Laser didn't have real operational utility given its 
limitations, it and other activities went together into a laser 
R&D program that is $100 million a year-plus, and there are a 
number of promising technologies across a range of 
applications, including missile defense and others.
    If I could add just very quickly on the earlier question, 
and I apologize for doing this, but I just wanted to add to 
General Kehler's answer on cyber that, in addition to having 
the authority to protect its own networks, that the Defense 
Department is assigned responsibility for working with the 
defense industrial base, one of the 18 critical infrastructure 
categories, and we are working closely with DHS now to look at 
how the capabilities of the Department can be brought to bear 
to support DHS in protection of other critical infrastructure.
    As you know, but I just want to have on the record, the 
President does have emergency authority to direct DOD to defend 
the Nation as part of the defense support to civil authorities 
against a cyber or any other attack. We are in internal 
conversations in the administration now about how to do that 
more effectively and whether new authorities and legislation is 
needed, and look forward to joining your subcommittee and the 
other Emerging Threats and Capabilities Subcommittee in a 
couple of weeks with General Alexander to discuss.
    Mr. Langevin. Thank you. Well, I am encouraged by that 
answer.
    Both of you, I want to thank you for your testimony, and I 
look forward to following up, particularly on the directed 
energy issue as well.
    As I have often said, with the growing threats that the 
Nation faces from ballistic missile issues, we are not 
adequately going to be able to defend the Nation with kinetic 
weapons alone. The game changer will really come through 
directed energy, and the more we can do to support that work, 
the better.
    So thank you both for your testimony, your work and, with 
that, I yield back.
    Mr. Turner. I just want to echo what Mr. Langevin just 
said. Great comments.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Dr. Miller, the first question is for you. You may not be 
able to answer it. It may make you uncomfortable. But this gets 
back to South Korea. We know the conservative politicians there 
have for some time wanted to reintroduce tactical nuclear 
weapons to the peninsula, so we know recent DPRK [Democratic 
People's Republic of Korea] actions haven't driven that desire 
out of the blue from some elements of South Korean politics. 
But I guess what is shocking to me is that a White House 
official both believes that we would reintroduce and encourages 
such a request of tactical nuclear weapons to the peninsula.
    So my question is, what was he thinking?
    Dr. Miller. Obviously I can't answer that first person. I 
did have a chance to talk to Gary Samore, and I can tell you 
that he is fully on board with the clarification that was 
issued, and he was fully on board with the fact that I 
commented and intended to also say and make absolutely clear 
that the U.S. nuclear umbrella continues to extend to South 
Korea, and that neither side believes that that requires the 
deployment of tactical nuclear weapons on the peninsula. I can 
tell you he is 100 percent behind what the clarification of 
this policy is.
    Mr. Larsen. Did anybody tell Samore he should say less? 
Because he ought to.
    Back to something you might be able to answer directly, 
speaking for yourself. It has to do with the Global Threat 
Reduction Initiative. The 2010 appropriation was over $300 
million; the fiscal year 2011 request was over $550 million. 
Obviously, this increase for funding reflects the 
administration's success in securing promises from former 
Soviet bloc countries to remove and return highly enriched 
uranium by 2012.
    But we are in this continuing resolution world right now, 
and I would like you, if you can, help us understand what would 
happen to our efforts in Belarus, Poland, Vietnam and other 
countries and their ability to follow through on these 2012 
commitments, and help them follow through on these 2012 
commitments if, in fact, we ended up with something less than 
what the administration requested for 2011?
    Dr. Miller. Mr. Larsen, we would have to make some very, 
very difficult choices. What I would like to do, if I can, is 
take this for the record and come back and give you specific 
answers, given that we are partway through the year in 
execution at a lower level than we had hoped, and I would like 
to describe what have been the effects so far and then what 
would be the consequences if it continued for the duration of 
the year.
    I can give some general comments, but I think it would be 
preferable to give details on it. I would be happy to do it on 
a country-by-country basis and to answer very swiftly.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Larsen. That would be great, and I think it would be 
very helpful, because it is not so much that it is this 
administration's policy, it is just a generally good idea to 
get to these countries and get our hands on this HEU [highly 
enriched uranium], get it behind a good lock and then destroy 
it. I am very concerned we are not going to be able to do that, 
much less than what happens to the 2012 request as we move 
forward in the appropriations process.
    General Kehler, again, congratulations. It has been an 
exciting 30 days for you, I am sure. But something that we have 
on this committee considered over the last several years, and, 
Mr. Chairman, I was going to ask the ranking member, too, we 
might want to either do a hearing or do something in a 
different setting on the space situational awareness. We have 
been tracking that and pressing that for the last several years 
for a lot of reasons.
    Given what is in the budget for 2012, what are the most 
important steps that you can tell us about here that you are 
taking with regards to space situational awareness?
    General Kehler. Congressman, there are two critical 
components that are continued in this budget that is before you 
today that will contribute to space situational awareness. One 
is a way to better fuse the existing data from the existing 
sensors, make better use of the sensors that we have, and bring 
that information together out at Vandenberg in what is our 
Joint Space Operations Center. At the same time as we go down 
that road, I think we have a great opportunity here to look 
very carefully with our allies and commercial partners and 
others to see how they can continue to contribute to that pool 
of data and our overall understanding of what is there.
    Over the last year, or almost two now, STRATCOM has been 
pursuing a program that was actually recommended by Congress 
that was originally called the Commercial and Foreign Entities 
Program. What that has resulted in now is a much better way to 
share situational information with other entities, to include 
commercial partners that have now signed up and are much more 
freely providing information about their platforms. So that 
frees up our sensors and our computing power to go after things 
that maybe we don't know as much about.
    So that is very helpful. So it is how the data is exposed, 
how we make use of it. And how we include partners in all of 
that, I think, is something that is critically important and 
something we will need to continue to push. Some of that is 
contained in this budget.
    The other thing is sensors. Even with sharing other 
information, and even with the better use of the sensors we 
have, we will need some sensors positioned in other places, and 
that is contained in the budget as well.
    So those two things are in the budget. They are important, 
both of those, to us. And overall, I think you are right: the 
issue of situational awareness for space is very high on our 
priority list. And, by the way, it is for cyberspace as well, 
and it is not unlike the same issues that we are working for 
space. So cyber situational awareness, I think if General 
Alexander was here from CYBERCOM, he would leap up at this 
point and say, same for cyberspace, because that is a high 
priority for us in both of these places.
    Mr. Larsen. Just quickly, I gather from your answer that, 
in fact, we could have a much more complex conversation about 
this perhaps in a different setting.
    General Kehler. Yes, sir.
    Mr. Larsen. Thank you.
    Mr. Turner. I appreciate your comment on space situational 
awareness. In fact, this subcommittee has been working on 
issues of having 101 sessions, if you will, briefings that are 
not in the context of committee hearings for the purposes of 
really just straight education and subject matter information 
for the Members.
    Mr. Larsen, I am very proud to say, you get a gold star. I 
think you have been probably in the best attendance of 
everybody, and I appreciate that.
    Mr. Larsen. If I may, Mr. Chairman, after last year's 
markup, I made a commitment to you that I would.
    Mr. Turner. There you go. Wonderful. Space is next Friday, 
so I am certain your star will not diminish. I look forward to 
that. Dr. Payne, whom we have next, and Dr. Roberts have both 
presented at those, and we greatly appreciated their 
participation.
    Gentleman, we are going to end here, but I am going to give 
you an opportunity if there is anything that you would like to 
say in closing or to clarify in the discussion, I want to give 
you the opportunity to add anything to your comments.
    Dr. Miller. I will say three things very quickly.
    First, I want to thank you for the opportunity to testify 
today, and to your 101 sessions, and look forward to having our 
people continue those and want to be available to answer any 
additional questions that you and the subcommittee or larger 
committee have as well.
    Second, I look forward to coming back specifically for a 
classified discussion on hedge and what our thinking is in that 
regard. We had by chance bumped into the combatant commander 
for Northern Command in the anteroom, and I think we are well 
aligned on having the conversations--internal conversations--
closed down that we need to move forward there.
    Third, I want to thank you and the subcommittee and 
committee for support of both sides of President Obama's 
vision, including the arms control side, and also including the 
investments and, again, say that it is critical to this 
administration that we get the funding necessary to support our 
strategic nuclear delivery systems and, again, DOD speaking for 
the DOE funding line, the funding for NNSA to continues 
nonproliferation and its weapons work as well for fiscal year 
2011. Thank you very much.
    Mr. Turner. Thank you.
    General Kehler. Mr. Chairman, just let me add my thanks. We 
know that the subcommittee has a lot of issues on its plate, 
and we are pledged to come back at any time that you want to 
continue these discussions further.
    Typically combatant commanders don't say much about 
investment and needs to support budgets, but I must add my 
voice to Dr. Miller here. In the first 30 days, I have told my 
staff that what I wanted to do was get all the way around the 
nuclear weapons complex. I didn't make it. I got about half of 
the way through, but I will get through the rest of it within 
the next couple of weeks.
    I must say that my assessment is that the investment that 
is planned for them is definitely needed, and it underpins all 
of our other deterrence activities. If the weapons are not safe 
and effective and secure, I think we don't have a leg to stand 
on. So I would encourage support for that part of the 
investment as well, even though that is not directly in our 
portfolio.
    Mr. Turner. General, thank you for those comments. Thank 
you both. Thank you for your service.
    We will now go to our second panel, which will be Dr. Bill 
Perry and Dr. Keith Payne.
    Gentleman, while you are getting situated, let me begin my 
welcome to you. I want to provide you a warm welcome to Dr. 
Perry and Dr. Payne.
    As I mentioned earlier, I believe that the committee's 
oversight is further enhanced through additional perspectives 
outside of the traditional Pentagon witnesses that we usually 
hear from. Therefore, I have asked Dr. Bill Perry and Dr. Jim 
Schlesinger, the Chairman and Vice Chairman of the U.S. 
Strategic Posture Commission, to provide their views. Dr. 
Schlesinger, as I stated earlier, was unable to join us today, 
and I appreciate Dr. Keith Payne filling in for him.
    I greatly appreciate also your participation, as we 
mentioned prior, in our 101 sessions where the committee is 
doing an overview of this subject matter.
    Dr. Perry, I greatly appreciate you being here and all of 
your service and insight. We look forward to your statement, 
and I will recognize you now.

  STATEMENT OF DR. WILLIAM J. PERRY, CHAIRMAN, CONGRESSIONAL 
    COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES

    Dr. Perry. Thank you. I have a rather extensive written 
testimony which I have submitted, which I would like to submit 
for the record.
    You know, in 2009, Congress----
    Mr. Turner. Dr. Perry, they are going to turn your 
microphone on here, I believe.
    Dr. Perry. In 2009, the Congress appointed our bipartisan 
Commission. We met for a year, and we ended up with a report. 
We have reported about a year ago to the Congress on that 
report. It was a bipartisan Commission and ended up with, 
amazingly, a consensus report with only one exception that had 
to do with the CTBT [Comprehensive Test Ban Treaty] treaty.
    I reviewed the statement that I made to Congress last year, 
and I stand by that statement, and my written testimony 
reflects that fact with a few updates, and the updates 
primarily reflect the new events and, most notably, the Nuclear 
Posture Review, which was finished since then. So my oral 
statement, I am only going to highlight a few of the important 
points.
    First, the threat has indeed changed since the Cold War 
with much less risk of a nuclear exchange, but a greater risk 
of nuclear terrorism. Therefore, to safeguard our security, we 
must continue to support the military programs and maintain an 
adequate deterrence force. At the same time, we need to support 
those programs that guard us against nuclear terrorism. They 
fall into two categories, basically: military programs, of 
which the BMD [ballistic missile defense] program is the 
primary example, and nonmilitary programs, which are 
international in nature, which prevent proliferation.
    Considering those two different kinds of programs, when I 
was the Secretary of Defense, I referred to those as the need 
to lead but hedge; lead in the international programs that 
prevented proliferation, but hedging by maintaining an adequate 
deterrence in case stopping proliferation failed.
    The leading has been supported, really, by the last five 
administrations through treaties: the START Treaty, the INF 
[Intermediate-Range Nuclear Forces] Treaty, the Comprehensive 
Test Ban Treaty, the Moscow Treaty and, most recently, the New 
START Treaty.
    The deterrence, which is the hedge part of that, was the 
major subject of the report we wrote. We recommended how to 
maintain the deterrence in the future. I am happy to report 
that, in my judgment, the Nuclear Posture Review largely 
accepted the recommendations that we made in our report.
    We argued that as a matter of policy we should clarify how 
we are going to use nuclear weapons. The Nuclear Posture Review 
used somewhat different language than we used, but nevertheless 
did have an important clarification, and it also, as we 
recommended, made strong assurances to our allies.
    Secondly, we argued strongly that we should maintain the 
safety, security, reliability, and effectiveness of our 
deterrence force; do that through maintaining a robust three 
laboratories, through maintaining a Stockpile Stewardship 
Program and Life Extension Program, and undertake the program 
to make a transformation of our two facilities at Los Alamos 
and Oak Ridge. One of them is plutonium; the other one is 
uranium. All of those are in the Nuclear Posture Review, and 
all of them have been funded, so I am quite pleased with the 
follow-up on our treaty there.
    In terms of the leading, we recommended strongly actions to 
reverse proliferation in North Korea and Iran, and I am sorry 
to report that nothing useful has happened in either of those 
cases. They still maintain threats--I would say greater 
threats--than at the time we wrote our report.
    We recommended that there be a treaty, an arms treaty, with 
Russia with modest reductions, and the New START Treaty 
essentially was compatible with what we had recommended there. 
We then also said beyond that we should consider follow-on 
treaties which dealt specifically with the danger of tactical 
nuclear weapons.
    We recommended a strong strategic dialogue with Russia and 
other nuclear powers. That has gotten under way. We recommended 
continuing to maintain the strength of the Threat Reduction 
Program. And on the nature of the Comprehensive Test Ban 
Treaty, we had a split report on that--half of us recommending 
in favor of doing it, half of us recommending against it--but 
all of us recommending steps that the Senate should take to 
reconsider the treaty.
    Finally, we recommended the strengthening of the 
International Atomic Energy Agency and adding to the Nuclear 
Nonproliferation Treaty the additional protocols to strengthen 
them.
    Mr. Chairman, that summarizes briefly what I thought were 
the highlights of the report and how it compared to the Nuclear 
Posture Review. My bottom line is that I am very pleased that 
the Nuclear Posture Review was very, I think, quite compatible 
with the recommendations we made, with only a few very minor 
exceptions.
    [The prepared statement of Dr. Perry can be found in the 
Appendix on page 92.]
    Mr. Turner. Thank you, Dr. Perry.
    Dr. Payne.

 STATEMENT OF DR. KEITH B. PAYNE, COMMISSIONER, CONGRESSIONAL 
    COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES

    Dr. Payne. Thank you, Mr. Chairman. It is an honor to be 
here today, particularly in the company of Secretary Perry who 
did such a wonderful job leading the Commission. So, thank you, 
sir.
    And as you noted, Mr. Chairman, I am pinch-hitting for Dr. 
Schlesinger today. I know we all wish he could be here, and we 
all wish him the very best.
    I would like to make a brief opening remark and then submit 
the article from which I drew those remarks for the record. I 
will take just a moment to identify a few of the Commission's 
basic recommendations and then identify the potential 
challenges to the U.S. strategic nuclear force posture as I see 
them.
    The bipartisan Congressional Strategic Posture Commission 
offered numerous recommendations to reduce what we called the 
nuclear danger. For example, to reduce the nuclear danger, the 
Commission recommended a conscious effort to balance diplomatic 
measures to reduce the number of nuclear weapons with the 
necessary measures to deter attacks and to assure allies of 
their security. Despite the occasional friction between U.S. 
diplomatic and deterrence efforts, Republican and Democratic 
administrations for five decades have sought just such a 
balance.
    The Commission also emphasized that the United States must 
maintain a viable nuclear arsenal for the indefinite future to 
support the national goals of deterrence and assurance. The 
Commission did not try to identify the minimum number of 
nuclear weapons necessary for deterrence and assurance. This 
omission was not a mistake; it was in recognition of the fact 
that these force requirements can change rapidly because they 
are driven by many fluid factors.
    Rather than selecting an inherently transient right number 
of nuclear weapons, the Commission highlighted the need for a 
flexible and resilient force posture to support deterrence and 
assurance across a shifting landscape of threats and contexts.
    We noted, in particular, that the importance of flexibility 
and resilience in the force posture will increase as U.S. 
forces decline in numbers. This emphasis on the need for 
flexibility and resilience in our force structure is the 
primary reason the Commission recommended that the 
administration maintain the strategic triad of bombers, ICBMs 
and sea-based missiles.
    Finally, in recognition of the fact that deterrence may 
prove unreliable, the Commission also concluded that the United 
States must design its strategic forces not only for 
deterrence, but also to help defend against an attack if 
deterrence fails. This defensive goal includes the requirements 
for missile defense against regional aggressors and limited 
long-range missile threats. We specifically urged that U.S. 
defenses against long-range missiles become capable against 
more complex limited threats as they mature.
    In light of these Commission recommendations, my foremost 
concern is that U.S. nuclear policy appears to be departing 
from a balance between diplomatic and deterrence measures to 
reduce the nuclear danger. Specifically, the goal of nuclear 
reductions appears to have been given precedence, and the 
resultant imbalance could undermine our future capabilities to 
deter, to assure and to defend.
    What is the basis for my concern? The 2010 Nuclear Posture 
Review, a highly commendable report in many respects, for the 
first time places atop the U.S. nuclear agenda international 
nonproliferation efforts ``as a critical element of our effort 
to move toward a world free of nuclear weapons,'' and that is 
quoting from the NPR. This prioritization appears self-
consciously to depart from the carefully balanced dual tracks 
of the past 50 years.
    The administration assurances that the U.S. will maintain 
an effective nuclear deterrent certainly are welcome, but at 
the end of the day, if a top U.S. policy priority is 
international nonproliferation efforts and movement toward 
nuclear zero, there will be unavoidable trade-offs made at the 
expense of the U.S. forces important for deterrence, assurance 
and defense.
    This is not an academic concern over a few policy words. 
The administration links qualitative limits and numeric 
reductions in U.S. nuclear forces to progress in 
nonproliferation and the movement toward nuclear zero. 
Qualitative limitations and further reductions in our forces, 
however, can reduce their flexibility and their resilience, 
undermining our national goals of deterrence and assurance. 
This is the trade-off that continues to need careful balance.
    The Commission specifically cautioned against pursuing 
nuclear reductions at the expense of the resilience of our 
forces, in part because policies that undermine credible 
deterrence and assurance could actually provoke nuclear 
proliferation, not prevent it.
    The U.S. defensive programs may also be undermined by the 
administration's self-described nuclear policy agenda. Russian 
officials and some American commentators now claim that 
qualitative and quantitative restraints on U.S. strategic 
defenses are necessary for any further negotiated nuclear 
reductions.
    With international nonproliferation efforts and movement 
toward nuclear zero at the top of the U.S. nuclear agenda, as 
defined in the Nuclear Posture Review, the pursuit of nuclear 
reductions at the expense of U.S. missile defenses could 
ultimately be deemed an acceptable trade-off. That certainly is 
the Russian demand.
    My final related concern is the possibility that new policy 
guidance could attempt to drive deep reductions in U.S. forces 
by redefining deterrence in minimalist terms, thereby lowering 
the force requirements deemed adequate for deterrence. For over 
five decades, Republican and Democratic administrations have 
consistently rejected minimum deterrence as inadequate and 
dangerous. Yet many proponents of nuclear zero now again 
advocate new Presidential guidance that adopts minimum 
deterrence as a way to justify deep reductions in U.S. nuclear 
forces.
    Adopting a minimum definition of deterrence may help to 
justify the elimination of the triad and U.S. nuclear 
reductions down to 500 weapons, but it would do so at the 
expense of flexibility and resilience and, thus, the 
effectiveness of our forces for deterrence and assurance. 
Again, the Commission specifically cautioned against such 
nuclear reductions and emphasized that new Presidential 
guidance should ``be informed by assessments of what is needed 
for deterrence and assurance.'' Any new guidance that adopts 
minimum deterrence could easily increase the nuclear danger by 
undermining credible U.S. deterrence and by pushing friends and 
allies toward nuclear proliferation.
    In summary, I am concerned about the apparent imbalance in 
the administration's announced nuclear agenda and the 
possibility that new policy guidance may adopt long-rejected 
minimum deterrence standards as a route to deep nuclear 
reductions. The Commission's unanimous recommendations for (1) 
a balance in priorities; (2) the maintenance of a flexible and 
resilient strategic force posture; and (3) improving U.S. 
strategic defensive capabilities--indeed, against missile 
threats of all ranges--those recommendations, I believe, remain 
useful and pertinent.
    Thank you.
    [The prepared statement of Dr. Payne can be found in the 
Appendix on page 104.]
    Mr. Turner. Gentlemen, thank you for your comments and for 
your input. This is very helpful, as we take in consideration 
the prior testimony, to get your perspective.
    Dr. Perry, I want to again commend you for the Strategic 
Posture Commission. Everyone looks to the report from that 
Commission as a great perspective on both the policy issues 
that we need to look for in decisionmaking, but also some of 
the substantive guidance, I think, that you are absolutely 
correct went into the NPR and then, further, into START. I 
think it is a great perspective for us to continue to look to.
    I have basically two questions that have a couple multiple 
parts. I am going to ask you the first one with a couple of 
parts to it. But the first is about overall general cuts. The 
second is on the tactical nuclear weapons in Europe.
    So the first question is, could you please describe in more 
detail the guidance that would have to be rewritten to warrant 
deeper cuts in our nuclear arsenal? What are some of the 
consequences or dangers associated with downgrading our 
deterrence requirements? Does this mean downgrading from a 
counterforce to a countervailing strategy? Could such a move 
hurt the credibility and flexibility of our deterrent? That 
would be the first question. I will give you both an 
opportunity to answer, and then I would like to discuss the 
tactical weapons in Europe.
    Dr. Perry.
    Dr. Perry. You wanted to do the first question first?
    Mr. Turner. If you would, yes.
    Dr. Perry. My present view, Mr. Chairman, is that our cuts 
for the foreseeable future should be aligned with the cuts made 
by Russia, and if they are willing to go to deeper cuts, we 
should be willing to go to deeper cuts as well. That will be 
true up until such time as those cuts begin to approach the 
level of the other nuclear powers. That is a short answer to 
the question.
    Mr. Turner. Excellent.
    Dr. Payne.
    Dr. Payne. Thank you.
    According to official unclassified and declassified 
reports, there are different general categories of opponents' 
targets that the U.S. tries to hold at risk for deterrence 
purposes. Categories are nuclear forces, leadership, other 
military capabilities, and war-supporting industrial and 
economic facilities, according to the unclassified official 
government statements to that effect.
    Over time, as the Commission noted, Presidential guidance 
has adjusted U.S. emphasis on these categories, which can then 
change the numbers and types of weapons the military requires 
to fulfill that guidance. In theory, to get to low force 
requirements, new guidance could lower the force standards 
deemed adequate for deterrence. New guidance could simply 
eliminate nuclear requirements to hold one or more of those 
categories of targets that I identified at risk for deterrence 
purposes.
    We have seen something like this in the past. In the 1960s, 
Secretary of Defense McNamara declared that U.S. deterrence 
requirements could be met by threatening 25 percent of the 
Soviet population and 50 percent of the Soviet industrial base. 
That was the assured destruction capability that was deemed 
adequate for deterrence. Secretary McNamara subsequently said 
that one of the reasons for choosing that type of threat as a 
declaratory policy was because it allowed him to hold numbers 
of forces very low, because the lethality of nuclear weapons is 
such that it is not a large number of nuclear weapons necessary 
to hold those kinds of targets at risk, population and 
industry.
    So some have now suggested going back to a McNamara-type 
assured destruction threat--deterrent threat--with an emphasis 
on only a few industrial-type targets as the way to get numbers 
of force requirements, the number of forces and the 
requirements down.
    For five decades, I should note that no Republican or 
Democratic administration has accepted that kind of minimum 
deterrence standard for U.S. forces, and for very good reasons. 
The primary reason is because revising the U.S. definition of 
requirements down for deterrence doesn't mean that the actual 
requirements for deterrence go down. The actual deterrence 
requirements are driven by what our opponents think, not by our 
goal to reduce numbers.
    I think Harold Brown put it best when he said for 
deterrence to prevent war as effectively as possible, it is 
critical that the United States can threaten what the opponents 
value, wherever that leads us.
    So, with that, I would note there are at least a handful of 
fundamental reasons for rejecting any efforts to go back to a 
minimum deterrence definition of force requirements, and each 
of these reasons follows because those kinds of force 
requirements, minimum deterrence force requirements, create an 
inflexible straitjacket for the President.
    But, one, going down to very low numbers associated with 
minimum deterrence is unlikely to be credible to deter attacks 
on us or our allies, at least on some occasions. Enemies may 
not believe that threat on occasion, or that threat may not be 
suitable to address what the opponent actually values on other 
occasions, violating Harold Brown's dictum. In either case, 
minimum deterrence will fail to prevent war.
    Two, minimum deterrence standards will undercut our ability 
to assure our allies and friends, and it will lead some of them 
to seek their own independent nuclear capabilities; i.e., it is 
likely to promote nuclear proliferation.
    Three, these types of minimum force standards associated 
with minimum deterrence will also ease the problems for 
opponents who seek to counter or get around our deterrence 
strategies. They are actually likely to encourage challenges to 
deterrence.
    Four, minimum deterrence that focuses on population and 
civilians, civilian centers, are both illegal and immoral as a 
targeting policy. We cannot intentionally threaten civilian 
populations and targets for deterrence purposes.
    Lastly, minimum deterrence standards offer little 
flexibility or resilience, so that when the future unfolds in a 
threatening fashion, we don't have the flexibility or the 
resilience to respond as necessary to deter war and to assure 
our allies.
    It is basically those reasons that I have just identified, 
those handful of reasons, why no Democratic or Republican 
administration for five decades has accepted a minimum 
deterrence approach to force sizing.
    Dr. Perry. Mr. Chairman, if I may comment on that, my 
recommendation was to continue to reduce numbers compatible 
with those of Russia. On the question of deterrence, one has to 
first ask, whom are we deterring? I would argue the answer is 
Russia, because all other cases are lesser-included cases at 
this time. At the present numbers and foreseeable numbers in 
the future, Russia is the only one that has enough nuclear 
weapons to be an issue here.
    And the next question is deterring what? Russia does not 
have a conventional capability today capable of threatening 
either the United States or Europe. So all we can be talking 
about is deterring Russia's nuclear weapons.
    Therefore, that is why my answer--assuming those points, my 
answer talked about making the reductions in terms of bilateral 
reductions with Russia. This is the background for that point.
    Mr. Turner. Turning, then, to my second question, Dr. 
Perry, that is a great transition to my second question, and 
what we have learned today in our discussion is that NATO is 
currently undertaking a deterrence review, and in that 
deterrence review they will be looking at all components of 
NATO's presence, both our nuclear capability, our missile 
defense capability and conventional.
    It is a concern that the deterrence review proceed within 
context, as you said, Dr. Perry, to what is being deterred--
that being Russia and, of course, their significant nuclear 
arsenal.
    There is concern that there might be a recommendation in 
the deterrence review for a reduction in the U.S. nuclear force 
presence in Europe without achieving concessions from Russia of 
the number of tactical nuclear weapons that it currently has. 
For purposes of discussion, we know that they have in excess of 
3,800. Perhaps they have as many as 5,000. The U.S. has a very 
minimal number in conjunction with our NATO commitment.
    Do you think it would be wrong for us to do that? Because 
it would seem to me that if there is going to be corresponding 
reductions, that we should be seeking reductions from the 
Russians, and I think that is certainly the guidance the Senate 
had given in adopting New START.
    I would like both of your thoughts.
    Dr. Perry.
    Dr. Perry. I would like to give you a two-pronged answer to 
that question. First of all, I do not think we need nuclear 
weapons in Europe to deter Russia from an attack, or any other 
country from an attack on Europe. The nuclear weapons we have 
on our submarines, for example, are perfectly adequate for 
providing that deterrence.
    But there is a substantial political issue involved, and 
the political issue, the reason we have nuclear weapons in 
Europe in the first place, is not because the rest of our 
weapons are not capable of deterrence, but because, during the 
cold war at least, our allies in Europe felt more assured when 
we had nuclear weapons in Europe. That is why they were 
deployed there in the first place.
    Today the issue is a little different. The issue is the 
Russians in the meantime have built a large number of nuclear 
weapons, and we keep our nuclear weapons there as somewhat of a 
political leverage for dealing with an ultimate treaty in which 
we may get Russia and the United States to eliminate tactical 
nuclear weapons. My own view is it would be desirable if both 
the United States and Russia would eliminate tactical nuclear 
weapons, but I see it as very difficult to arrive at that 
conclusion if we were to simply eliminate all of our tactical 
nuclear weapons unilaterally.
    Mr. Turner. Thank you.
    Dr. Payne.
    Dr. Payne. Thank you.
    The Russian position certainly is that all U.S. tactical 
nuclear weapons must be returned to the United States before 
they will engage in negotiations on tactical nuclear weapons. I 
see some real problems with that, because if they are withdrawn 
now back to U.S. territory, it is hard to imagine them ever 
going back. And even if U.S. tactical nuclear weapons aren't 
necessary to deter Russia now, we don't know that the future is 
going to be so friendly.
    So I am very concerned about the idea of deciding that our 
tactical nuclear weapons serve no deterrence role now; 
therefore, we can bring them back, because the future has a way 
of turning out in some ways darker than we anticipate on many 
occasions, and I think we need that flexibility to be able to 
be prepared for future events that may be less happy than we 
would otherwise expect.
    The second point is that, in addition to ``we may need them 
for deterrence purposes in the future,'' is that many of our 
allies see our nuclear weapons there as important for their 
assurance. It is what in some cases helps to keep them from 
deciding they will pursue an alternative to extended nuclear 
deterrence.
    Therefore, this isn't just a deterrence issue. In fact, I 
think it is primarily, at the present time, an issue of how do 
you assure allies so they themselves remain comfortable within 
the alliance and in a non-nuclear status. We know, because 
before the Commission a number of the allies we had a chance to 
speak with said ``these weapons in Europe are important to us 
for the demonstration of extended deterrence.''
    So I would be very reluctant to see the U.S. do anything 
unilaterally along those lines.
    Mr. Turner. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    With regard to minimum deterrence, Dr. Payne, would you 
include the current administration as one of those who has 
rejected minimum deterrence?
    Dr. Payne. Yes.
    Mr. Larsen. Thank you.
    I would also note in your testimony you talk about the 
governor of Tokyo arguing at some point that Japan may look to 
its own independent nuclear deterrent.
    I was in Japan a few years ago on a CODEL [congressional 
delegation] and having lunch with some folks from the Diet, and 
this was at least 3 years ago, and they were arguing then that 
they should have an independent nuclear deterrent. There are 
some folks in Japan who believe they ought to have an 
independent nuclear deterrent regardless of who the 
administration is, and regardless of assurances that we have 
about extended deterrence for Asia. So I just think that is 
just some context here.
    But there are some things about the NPR that I know you all 
looked at, and I would like to get your views, both, on the 
NPR's negative assurance policy and where the administration 
did make a slight adjustment on the negative assurance policy.
    I would like to, first Dr. Perry and then Dr. Payne, get 
your thoughts on the advantages of this negative assurance 
policy, how you see it playing out, how has it played out, has 
it not played out at all and, perhaps, the disadvantages of 
what the current negative assurance policy is.
    Dr. Perry, can you start?
    Dr. Perry. The short answer is I thought that the Nuclear 
Posture Review's negative assurance policy was a positive step 
forward.
    Mr. Larsen. Do you have a longer answer? We are not used to 
short answers around here. I am sorry. You know how it is.
    Dr. Perry. I think it is important that one of the main 
points of the negative assurance policy is to have the minimum 
incentive for other nations to build nuclear weapons.
    A negative assurance policy doesn't guarantee that, but it 
is a useful step in that direction. And so that is why I would 
view this as a positive step forward. So, basically, I am in 
favor of that. I thought we had a pretty good negative 
assurance policy before. I think this is an improvement.
    Mr. Larsen. Thank you, Dr. Perry.
    Dr. Payne.
    Dr. Payne. I also supported the language that the 
Commission put out with regard to negative assurance policy, 
and I was glad to see that the NPR didn't vary from that very 
much. The changes in the NPR with regard to the negative 
assurance policies are, I think, minor. And, in fact, when 
Secretary Clinton later amplified it by saying if BW 
[biological weapons] is ever used against the United States, 
all bets are on the table, I thought that it was a useful 
elaboration. And so with that type of understanding, I thought 
the changes were minimal, and I thought that was a good thing.
    Mr. Larsen. Okay. With regards to--and Dr. Payne, this goes 
to your point perhaps--well, one of your points in your 
testimony, oral and written--is that the President stated that 
the role of nuclear weapons will be reduced in U.S. national 
security policy. And to that end the NPR declares that non-
nuclear elements will take on a greater share of the deterrence 
burden.
    Should we interpret that as a desire to substitute 
conventional for nuclear capabilities in deterrence?
    Dr. Payne. Well, the 2001 nuclear posture said exactly the 
same thing. This wasn't a great departure from what had been 
set up before.
    Mr. Larsen. Sounds like it was no departure.
    Dr. Payne. In that case there was no departure, sir. And I 
agreed with that at the time. So I, again, didn't have any 
challenge whatsoever to that kind of statement in the Nuclear 
Posture Review. Where deterrence can be serviced by 
conventional forces, we should certainly have the conventional 
forces available to do just that.
    Mr. Larsen. I guess I gathered from your written and oral 
testimony that this turning down in temperature or moving away 
from a nuclear deterrence was a bad thing, and it might be a 
bad thing. I am just trying to square that with your testimony.
    Dr. Payne. Fair enough, sir. The point I was making isn't 
that moving toward conventional forces for deterrence when 
possible is the wrong way to go. I think that is the right way 
to go.
    The point that I was making with regard to the NPR 
statement was the NPR language that says moving towards 
international and nonproliferation goals as a step toward 
nuclear zero is now the highest priority. It is the top 
priority. That is what the NPR says. Whereas in the past the 
United States, every Democratic and Republican administration 
has balanced those priorities.
    I don't have a concern that we move toward conventional 
deterrence when that fits, and when that is suitable, and when 
we can get appropriate deterrent effects from conventional 
forces. My concern is that the trade-offs that will have to be 
made if the top priority is, in fact, toward nuclear--
international nonproliferation is moving towards nuclear zero, 
because there will be trade-offs made with regard to our 
assurance, our deterrence, and our defensive capabilities if 
that is the operative top priority. That is my concern.
    Mr. Larsen. Okay. Dr. Perry, obviously you have been 
chewing on this question longer than I have certainly. Do you 
have a response to Dr. Payne's comments with regards to this?
    Dr. Perry. I generally agree with Dr. Payne's comments on 
there. I might say that the main subject of dialogue, even 
controversy, within the Commission was not whether there should 
be a balance. Everybody agreed there should be a balance. It 
was just how to weigh that balance. And some members favored 
weighing the proliferation issues more strongly than the 
deterrence issues and vice versa, and that had to do with which 
they thought was the more pressing threat to the United States. 
But they all agreed, I think we all agreed, on the importance 
of having the balance.
    Mr. Larsen. Great. Thank you. Thank you both.
    Thank you, Mr. Chairman.
    Mr. Turner. I am going to end with one question that is 
really asking both of you for a commercial. The Commission made 
recommendations about the investment into our nuclear 
infrastructure and NNSA. Some of that investment is at risk in 
this discussion that we are having on budget cuts nationally. 
As we look to the continuing resolution process where we have 
not yet funded the government for this year, there are many 
reductions that are hitting areas that they should not; for 
example, our national security and national defense.
    Since we have had deferred maintenance, a long period of 
time where we did not put the money in that we should have, we 
are now in a situation where we have to put more money in, and 
some are seeing that money as huge increases that perhaps we 
could find savings in. I would love just if each of you could 
pause for a moment and give us some guidance, give Congress 
some guidance as to how important that funding is for NNSA; 
what you saw, Dr. Perry, in the Commission of our 
disinvestment, and, Dr. Payne, what you see as the threat if we 
don't respond. Gentlemen.
    Dr. Perry. Thank you, Mr. Chairman. I will speak for myself 
first, but I really think I will be speaking for the Commission 
when I say this, which is that we regarded it extremely 
important to maintain a robust program at all three nuclear 
laboratories, the hiring and retaining of key people, the 
supporting of the Stockpile Stewardship Program, the supporting 
of the Life Extension Program.
    Beyond that, we believe that the plutonium facilities at 
Los Alamos ought to be renewed, and that the uranium facilities 
at Oak Ridge ought to be renewed. In the report, if my memory 
is right, we said that those could be done sequentially, in 
which case the plutonium should have the first priority, and 
the uranium should be done after that, but we did argue that 
both of them should be renewed.
    I would defer to Dr. Payne.
    Dr. Payne. This, again, is another area where the 
Commission was unanimous in the support for essentially fixing 
the problems that NNSA confronts. You mention the commercial. 
Chairman Turner, it is like the old commercial, you can either 
pay me now or pay me more later. I think our recommendation was 
to do it now as opposed to having to pay more later.
    I was encouraged to see the letter from the three lab 
directors who said that they thought the budgets that came out 
of the 1251 Report and the administration's commitment were 
quite acceptable to fulfill those goals and to fix the problem. 
So I would hate to see, and I am sure Secretary Perry would 
hate to see, movement away from that solution that we seemed 
like we almost have in hand for that problem.
    The only other point I would add, and the Commission report 
noted this a bit as well, is we also have industrial 
infrastructure challenges in front of us. Just making sure that 
the United States, for example, can produce large solid rocket 
motors, I think, is a very important goal, and it is something 
that is going to need attention in the near future. So there 
are NNSA challenges, but there are also industrial challenges 
that need to be tended to.
    Mr. Turner. Gentlemen, with that I will ask if you have any 
closing comments.
    Dr. Perry. I do not. Thank you, Mr. Chairman.
    Dr. Payne. I just have one, and I will make it short, and 
that goes back to Congressman Larsen's question, do I believe 
that this administration pursues a minimum deterrence policy, 
and I said no. I don't believe this administration pursues a 
minimum deterrence policy. The concern that I reflected in my 
remarks is my fear that, given the priorities identified in the 
NPR, we could see that coming. And I would hope that we would 
pay great attention to avoid that as every past Republican and 
Democratic administration has avoided it.
    Mr. Turner. Dr. Payne, Dr. Perry, thank you so much. Thank 
you for all your contributions. And, Dr. Perry, I must tell you 
that Kari Bingen, our professional staff member, had just 
commented that she could listen to you for hours. And I know we 
all could, and we would learn so much. So thank you for coming 
and participating, and thank you for your record. Very good.
    [Whereupon, at 5:52 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 2, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5112.073
    
    [GRAPHIC] [TIFF OMITTED] T5112.074
    
    [GRAPHIC] [TIFF OMITTED] T5112.075
    
    [GRAPHIC] [TIFF OMITTED] T5112.076
    
    [GRAPHIC] [TIFF OMITTED] T5112.077
    
    [GRAPHIC] [TIFF OMITTED] T5112.078
    
    [GRAPHIC] [TIFF OMITTED] T5112.001
    
    [GRAPHIC] [TIFF OMITTED] T5112.002
    
    [GRAPHIC] [TIFF OMITTED] T5112.003
    
    [GRAPHIC] [TIFF OMITTED] T5112.004
    
    [GRAPHIC] [TIFF OMITTED] T5112.005
    
    [GRAPHIC] [TIFF OMITTED] T5112.006
    
    [GRAPHIC] [TIFF OMITTED] T5112.007
    
    [GRAPHIC] [TIFF OMITTED] T5112.008
    
    [GRAPHIC] [TIFF OMITTED] T5112.009
    
    [GRAPHIC] [TIFF OMITTED] T5112.010
    
    [GRAPHIC] [TIFF OMITTED] T5112.011
    
    [GRAPHIC] [TIFF OMITTED] T5112.012
    
    [GRAPHIC] [TIFF OMITTED] T5112.013
    
    [GRAPHIC] [TIFF OMITTED] T5112.014
    
    [GRAPHIC] [TIFF OMITTED] T5112.015
    
    [GRAPHIC] [TIFF OMITTED] T5112.016
    
    [GRAPHIC] [TIFF OMITTED] T5112.017
    
    [GRAPHIC] [TIFF OMITTED] T5112.018
    
    [GRAPHIC] [TIFF OMITTED] T5112.019
    
    [GRAPHIC] [TIFF OMITTED] T5112.020
    
    [GRAPHIC] [TIFF OMITTED] T5112.021
    
    [GRAPHIC] [TIFF OMITTED] T5112.022
    
    [GRAPHIC] [TIFF OMITTED] T5112.023
    
    [GRAPHIC] [TIFF OMITTED] T5112.024
    
    [GRAPHIC] [TIFF OMITTED] T5112.025
    
    [GRAPHIC] [TIFF OMITTED] T5112.026
    
    [GRAPHIC] [TIFF OMITTED] T5112.027
    
      

    [GRAPHIC] [TIFF OMITTED] T5112.028
    
    [GRAPHIC] [TIFF OMITTED] T5112.029
    
    [GRAPHIC] [TIFF OMITTED] T5112.030
    
    [GRAPHIC] [TIFF OMITTED] T5112.031
    
    [GRAPHIC] [TIFF OMITTED] T5112.032
    
    [GRAPHIC] [TIFF OMITTED] T5112.033
    
    [GRAPHIC] [TIFF OMITTED] T5112.034
    
    [GRAPHIC] [TIFF OMITTED] T5112.035
    
    [GRAPHIC] [TIFF OMITTED] T5112.036
    
    [GRAPHIC] [TIFF OMITTED] T5112.037
    
    [GRAPHIC] [TIFF OMITTED] T5112.038
    
    [GRAPHIC] [TIFF OMITTED] T5112.039
    
    [GRAPHIC] [TIFF OMITTED] T5112.040
    
    [GRAPHIC] [TIFF OMITTED] T5112.041
    
    [GRAPHIC] [TIFF OMITTED] T5112.042
    
    [GRAPHIC] [TIFF OMITTED] T5112.043
    
    [GRAPHIC] [TIFF OMITTED] T5112.044
    
    [GRAPHIC] [TIFF OMITTED] T5112.045
    
    [GRAPHIC] [TIFF OMITTED] T5112.046
    
    [GRAPHIC] [TIFF OMITTED] T5112.047
    
    [GRAPHIC] [TIFF OMITTED] T5112.048
    
    [GRAPHIC] [TIFF OMITTED] T5112.049
    
    [GRAPHIC] [TIFF OMITTED] T5112.050
    
    [GRAPHIC] [TIFF OMITTED] T5112.051
    
    [GRAPHIC] [TIFF OMITTED] T5112.052
    
    [GRAPHIC] [TIFF OMITTED] T5112.053
    
    [GRAPHIC] [TIFF OMITTED] T5112.054
    
    [GRAPHIC] [TIFF OMITTED] T5112.055
    
    [GRAPHIC] [TIFF OMITTED] T5112.056
    
    [GRAPHIC] [TIFF OMITTED] T5112.057
    
    [GRAPHIC] [TIFF OMITTED] T5112.058
    
    [GRAPHIC] [TIFF OMITTED] T5112.059
    
    [GRAPHIC] [TIFF OMITTED] T5112.060
    
    [GRAPHIC] [TIFF OMITTED] T5112.061
    
    [GRAPHIC] [TIFF OMITTED] T5112.062
    
    [GRAPHIC] [TIFF OMITTED] T5112.063
    
    [GRAPHIC] [TIFF OMITTED] T5112.064
    
    [GRAPHIC] [TIFF OMITTED] T5112.065
    
    [GRAPHIC] [TIFF OMITTED] T5112.066
    
    [GRAPHIC] [TIFF OMITTED] T5112.067
    
    [GRAPHIC] [TIFF OMITTED] T5112.068
    
    [GRAPHIC] [TIFF OMITTED] T5112.069
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 2, 2011

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. LARSEN

    Dr. Miller. First, because as you know the Global Threat Reduction 
Initiative (GTRI) is a Department of Energy effort led by the National 
Nuclear Security Administration (NNSA), my response to your question is 
based on NNSA's input. Assuming that a full-year continuing resolution 
is passed in April 2011, and that the GTRI is funded at approximately 
$450 million, the GTRI still would be able to remove all highly 
enriched uranium (HEU) from Ukraine, Mexico, and Belarus by April 2012. 
However, if Congress continues to pass shorter-term, continuing 
resolutions (CR), the GTRI will not be able to complete the Belarus 
shipment of 280 kilograms (enough for more than 10 nuclear weapons) on 
time. Also, because of the CR, the GTRI has already been forced to 
delay long-lead procurement and preparation activities for HEU 
shipments from Poland, Vietnam, Uzbekistan, and Hungary due to lack of 
funding, which will likely delay these shipments from Fiscal Year (FY) 
2012 to FY 2013. Delays to the removal of HEU from Uzbekistan may 
require extensions of NNSA's material protection, control, and 
accounting efforts at two facilities, putting further financial 
pressure on that program. In addition, to keep the four-year HEU 
removal schedule as close to the established timeline as possible, the 
GTRI has had to reduce funding significantly for converting reactors 
from HEU to low-enriched uranium fuel, developing a domestic Mo-99 
isotope production capability, and improving radiological security. The 
GTRI will eventually need the full FY 2011 funding to avoid further 
delays in shipments, conversions, and security upgrades. [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 2, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. What is your assessment of Chinese intentions in the 
nuclear realm? China continues to modernize and expand its nuclear 
forces while we decrease ours. How does our strategic posture account 
for the uncertainty that China may further build up its forces and seek 
(or exceed) parity with the U.S. and Russia?
    General Kehler. China has a long-standing ``No First Use'' policy 
regarding nuclear weapons. China's modernization of their nuclear 
forces is in line with this policy, with their nuclear arsenal designed 
to be a sufficient and effective deterrent to foreign use (specifically 
the U.S. and Russia) of nuclear weapons against China. At this time, 
China doesn't appear to seek to expand their nuclear arsenal beyond 
what they perceive as a credible deterrent and is unlikely to attempt 
to match numbers of nuclear weapons or warheads with either the U.S. or 
Russia.
    Mr. Turner. Does the Obama Administration have plans to review and 
revise the nation's nuclear strategy and/or guidance on the roles and 
missions of nuclear weapons, which was last revised nearly ten years 
ago by the Bush Administration? Have your organizations been given any 
direction to look at changes or the impact of changes to U.S. nuclear 
strategy or guidance? Have your organizations been given any direction 
to look at nuclear force reductions below New START levels?
    General Kehler. USSTRATCOM's current focus is on implementing New 
START. The current administration has indicated its desire to review 
and revise the nation's nuclear strategy and guidance on the roles and 
missions of nuclear weapons, and we expect to be a full participant in 
that process. Currently, USSTRATCOM has not yet been given any 
direction to look at changes to, or impacts of changes to, U.S. nuclear 
strategy or guidance, nor has USSTRATCOM been given any direction to 
look at nuclear force reductions below New START levels.
    Mr. Turner. Were the reduced force levels agreed to in New START--
1,550 warheads and 700 deployed (800 total) strategic delivery 
vehicles--the lowest levels that STRATCOM could accept while still 
meeting current targeting and planning guidance? If the United States 
were to consider further reductions, how would the nation's nuclear 
strategy or guidance have to change?
    General Kehler. [The information referred to is classified and is 
retained in the subcommittee files.]
    Mr. Turner. What conditions do you believe would need to be met in 
order to permit further nuclear force reductions beyond New START 
levels or to permit reductions in U.S. hedge weapons?
    General Kehler. I fully support the approach outlined in the 
Nuclear Posture Review. Further reductions must continue to strengthen 
the deterrence of potential regional adversaries, strategic stability 
vis-a-vis Russia and China, and the assurance of our allies and 
partners. In addition, we must invest to ensure a safe, secure, and 
effective deterrent through full implementation of the Stockpile 
Stewardship Program and the nuclear infrastructure investments 
recommended in the NPR, as codified in the 3113 (Stockpile Stewardship 
and Management Plan) and 2151 reports.
    Mr. Turner. The Navy has briefed the committee on its plans to 
design the SSBN(X) submarine with only 16 ballistic missile tubes. 
However, as stated in the Administration's unclassified summary of the 
Section 1251 Report to Congress which accompanied the delivery of the 
New START Treaty to the Senate in May 2010, ``The Secretary of Defense, 
based on recommendations from the Joint Chiefs of Staff, has 
established a baseline nuclear force structure that fully supports U.S. 
security requirements and conforms to the New START limits . . . The 
United States will reduce the number of SLBM launchers (launch tubes) 
from 24 to 20 per SSBN . . .'' This was reaffirmed in the 
Administration's February 16, 2011 update to the Section 1251 report, 
``(U) Fixing the SLBM tubes at 20 rather than 24 deployed launches per 
SSBN will stabilize the number of strategic submarines to be maintained 
and will facilitate Navy planning for the OHIO-class submarine 
replacement.'' In your testimony on March 2, you stated, ``The issue of 
the number of tubes is not a simple black and white answer,'' but then 
went on to testify that, ``Sixteen will meet STRATCOM's requirements.''

    <bullet>  Can you please clarify your remarks on how 16 missile 
tubes on 12 SSBN(X) platforms meets mission requirements when the 
committee was told last May and again on February 16, 2011, that the 
U.S. would reduce the number of SLBM launchers (launch tubes) from 24 
to 20 per SSBN. What has changed?
    <bullet>  What specific changes in nuclear deterrence requirements, 
changes in nuclear strategy, or changes in planning assumptions have 
allowed STRATCOM to support a further reduction in SSBN missile tubes 
from 20 to 16?
    <bullet>  The SSBN(X) is expected to have a service life of over 60 
years. The threat and strategic environment can change significantly 
over the course of 60 years. What planning assumptions--both nuclear 
and nonnuclear--are being made? How do they affect the number of 
missile tubes per hull and what sensitivity analysis has been done?

    General Kehler. The Nuclear Posture Review affirmed the unique 
value of each Triad leg, and while New START sets overall limits, the 
treaty does not dictate how either party balances its forces across 
delivery platforms. We must consider every platform investment in terms 
of its impact on the aggregate. The 1251 report specifically addresses 
the current Ohio-class fleet and funding requirements through 2021. The 
Ohio Replacement fleet will not begin service until approximately 
2029--beyond the lifetime of New START.
    The planned 12 Ohio-Replacement SSBNs with a 16 missile tube 
configuration provides the operational flexibility and responsiveness 
necessary across a range of scenarios. Additional tubes would provide 
marginal potential benefits in a subset of possible scenarios, but 
their absence will not detract from the fleet's required operational 
effectiveness. Furthermore, we must remember that the total number of 
launchers, size and disposition of each triad leg, stealth 
capabilities, total warheads available, the number of boats we can keep 
at sea at any given time, and potential to adjust acquisition programs 
are all factors to be considered in shaping the future force.
    USSTRATCOM does not support a reduction in Ohio-class missile tubes 
from 20 to 16 in today's environment. If the strategic environment 
deteriorated today, our only option to increase the number of deployed 
SLBM weapons is to upload weapons, which is limited by the number of 
tubes/SSBN. However, during the procurement period for the Ohio-
Replacement Program (ORP) SSBNs, we will retain the option to build 
more SSBNs into the 2030s. Furthermore, at the same time the Department 
is considering the ORP, the Air Force is beginning to consider 
strategic bomber and ICBM replacement options--both of which could 
result in programs sized differently from the current force structure. 
All of these decisions lie in the years ahead, as future strategic 
environment, policy, and capabilities of the Triad will ultimately 
determine how many ORP SSBNs, new bombers, and new ICBMs are required.
    It is not possible to know what the strategic environment will be 
throughout the life of the Ohio-Replacement SSBN. While a 20 tube 
configuration provides marginally greater flexibility for a subset of 
targeting and hedging scenarios, 16 tubes provide sufficient 
flexibility and responsiveness to meet National requirements across a 
range of scenarios. The capability differences between a 16 and 20 tube 
configuration would only be relevant in a significantly deteriorated 
strategic environment. In that event, the inherent flexibility of the 
Triad would allow us to compensate with hedging strategies over the 
short term, while additional force structure (SSBNs, ICBMs, Bombers) 
enhancements would be a longer term solution. Again, we also have time 
to decide if additional submarines, beyond the planned 12 boats, will 
be required.
    Mr. Turner. By law, the STRATCOM Commander is required to review 
the annual certification of the nuclear weapons stockpile prepared by 
the directors of the nuclear weapons laboratories, and provide his own 
annual assessment. To the extent you can provide an unclassified 
discussion, please describe your current assessment of the nuclear 
stockpile and our deployed nuclear forces. As we look ahead, what 
concerns you most about the stockpile and weapons complex, and what 
impacts could these concerns have on STRATCOM's ability to meet its 
mission requirements?
    General Kehler. Based on CDRUSSTRATCOM 9 Nov 2010 assessment, our 
nuclear deterrent remains safe, secure, and effective.
    I am concerned about our ability to maintain long term confidence 
in the military effectiveness and reliability of an aging stockpile due 
to shortfalls in warhead surveillance and infrastructure capabilities. 
I am also concerned with the potential backlog of life extension 
programs and sequencing. The resources requested in the FY2011 and 2012 
budget requests are critical to ensuring a safe, secure, and effective 
stockpile.
    Mr. Turner. The Administration has requested $564 million in 
military construction authority to support the recapitalization of the 
STRATCOM Headquarters at Offutt AFB. Considering the significant 
investment to construct a new headquarters, what assessment was done 
regarding the possibility of moving this headquarters function to 
another location?
    General Kehler. While no formal assessment of alternative locations 
was done, Offutt AFB meets all of our location requirements for 
executing our nuclear command and control and other missions. Moving 
the STRATCOM C2 facility to another military installation would incur 
significant relocation costs and disrupt our uniquely trained and 
experienced workforce. The USSTRATCOM MILCON requirement is for the 
recapitalization of a facility for an existing mission at our current 
location. The primary purpose is to provide modern command and control 
across a diverse and complex mission set of national importance.
    Mr. Turner. In the proposed construction of a new STRATCOM 
headquarters at Offutt AFB, NE, CYBERCOM has an embedded presence to 
support operations. Considering CYBERCOM remains an emerging component 
of the national strategy whose final composition and organization has 
yet to be determined, there is concern about incorporating the 
requirements of CYBERCOM elements at Offutt AFB. The Air Force is the 
force provider for STRATCOM and responsible for developing the 
construction requirements for the new facility.
    As the force provider for STRATCOM, what has the Air Force done to 
assess the necessity to provide infrastructure at Offutt AFB for 
CYBERCOM? What consideration has been given to deferring the 
construction of this function until a final decision is reached on the 
final disposition of CYBERCOM?
    General Kehler. USSTRATCOM's Command and Control Facility 
requirements are distinctly separate and independent of the CYBERCOM 
Mission. While cyber planning is conducted at USSTRATCOM, executing 
operations and monitoring and defending the GIG is conducted at 
CYBERCOM's HQ, located in Fort Meade, MD. No additional ``cyber'' 
infrastructure is required or planned for the new USSTRATCOM Command 
and Control facility.
    USSTRATCOM has not received specific infrastructure requirements 
from the Air Force for CYBERCOM, nor are we anticipating any. The IT 
infrastructure in the new C2 Facility has been sized to support 
maintaining cyber networks, as part of our UCP mission and integrating 
this SA with our other UCP missions. Therefore, USSTRATCOM specific 
CYBERCOM elements are negligible and do not impact the proposed MILCON 
project of the USSTRATCOM Replacement Facility.
    Mr. Turner. What is your assessment of Chinese intentions in the 
nuclear realm? China continues to modernize and expand its nuclear 
forces while we decrease ours. How does our strategic posture account 
for the uncertainty that China may further build up its forces and seek 
(or exceed) parity with the U.S. and Russia?
    Dr. Miller. China's official policy toward nuclear deterrence 
continues to focus on maintaining a nuclear force structure able to 
survive attack and respond with sufficient strength to inflict 
unacceptable damage on the enemy. China has consistently asserted that 
it adheres to a ``no-first-use'' policy, stating it would use nuclear 
forces only in response to a nuclear strike against China. There is 
some ambiguity about the conditions under which China's no-first-use 
policy would or would not apply, but there has been no indication that 
national leaders plan to revise the doctrine. China will likely 
continue to invest considerable resources to maintain limited nuclear 
deterrence with regard to the United States, also referred to by some 
PRC writers as a ``sufficient and effective'' deterrent. Since China 
views nuclear deterrence as critical to its national security, it is 
likely to continue to invest in technology and systems to ensure the 
military can deliver a damaging retaliatory nuclear strike.
    The pace and scope of China's efforts to modernize its nuclear 
arsenal, both quantitatively and qualitatively, combined with the lack 
of transparency, underscores the importance of ensuring strategic 
stability in U.S. relations with China, as well as with the other 
nuclear powers. Russia remains the only peer of the United States in 
the area of nuclear weapons capabilities; China's nuclear arsenal 
remains much smaller than those of Russia and the United States. 
Fundamental changes in the international security environment in recent 
years--including the growth of unrivaled U.S. conventional military 
capabilities, major improvements in missile defenses, and the easing of 
Cold War rivalries--enable us to fulfill our objectives for deterrence 
and stability at significantly lower nuclear force levels and with 
reduced reliance on nuclear weapons. Therefore, without jeopardizing 
our traditional deterrence and reassurance goals, we are now able to 
shape our nuclear weapons policies and force structure in ways that 
will better enable us to meet today's most pressing security 
challenges. Any future nuclear reductions must be accomplished in the 
context of strengthening deterrence against potential regional 
adversaries, enhancing strategic stability vis-a-vis Russia and China, 
and maintaining assurance of our Allies and partners.
    The United States is pursuing high-level, bilateral dialogues on 
strategic stability with China aimed at fostering a more stable, 
resilient, and transparent strategic relationship. During his visit to 
Beijing in January 2011, Secretary Gates communicated the U.S. desire 
to initiate a Strategic Security Dialogue. A U.S.-China dialogue will 
improve our means of communication to help reduce risk and mistrust and 
to begin building the confidence and mutual understanding necessary for 
enhanced relations and stability.
    Mr. Turner. Does the Obama Administration have plans to review and 
revise the nation's nuclear strategy and/or guidance on the roles and 
missions of nuclear weapons, which was last revised nearly ten years 
ago by the Bush Administration? Have your organizations been given any 
direction to look at changes or the impact of changes to U.S. nuclear 
strategy or guidance? Have your organizations been given any direction 
to look at nuclear force reductions below New START levels?
    Dr. Miller. During 2009-2010, the Department of Defense, in 
consultation with the Departments of State and Energy, conducted the 
Nuclear Posture Review (NPR) required by Congress pursuant to Section 
1070 of the National Defense Authorization Act for Fiscal Year 2008. 
Under the statute, the NPR was directed to review a range of elements 
that included the role of nuclear forces in U.S. military strategy, 
planning, and programming; and the relationship among U.S. nuclear 
deterrence policy, targeting strategy, and arms control objectives. The 
2010 NPR report focuses on key objectives of nuclear weapons polices 
and posture, and serves as a roadmap for implementing President Obama's 
agenda for reducing nuclear dangers, while simultaneously advancing 
broader U.S. security interests.
    A key part of implementing the NPR, as with previous such reviews, 
is the revision of detailed Presidential and Departmental guidance, and 
the subsequent modification of operational plans. That effort is now 
beginning. As an initial step, the Department of Defense will analyze 
potential changes in targeting requirements and force postures. 
Potential changes will be assessed according to how they meet key 
objectives outlined in the NPR, including reducing the role of nuclear 
weapons, sustaining strategic deterrence and stability, strengthening 
regional deterrence, and assuring U.S. Allies and partners. The 
analysis of potential revisions to guidance and planning will take 
account of commitments made in the NPR. The analysis will also consider 
possible changes to force structure that would be associated with 
different types of reductions. And, it will consider possible changes 
to nuclear deterrence strategies associated with changes in the 
security environment, as well as the potential contributions of non-
nuclear strike capabilities to strategic deterrence. Presidents have 
traditionally conducted such an analysis and have provided updated 
planning guidance to the Department of Defense.
    As stated in the NPR, the United States intends to pursue further 
reductions in strategic and non-strategic nuclear weapons with Russia, 
including both deployed and non-deployed nuclear weapons. When 
complete, the analysis of targeting requirements and force postures 
will support the formulation of post-New START Treaty arms control 
objectives. We intend to consider future reductions in a manner that 
supports the commitments to stability, deterrence, and assurance of our 
Allies and partners.
    Mr. Turner. What conditions do you believe would need to be met in 
order to permit further nuclear force reductions beyond New START 
levels or to permit reductions in U.S. hedge weapons?
    Dr. Miller. As stated in the 2010 Nuclear Posture Review (NPR) 
report, the United States intends to pursue further reductions in 
strategic and non-strategic nuclear weapons with Russia, including both 
deployed and non-deployed nuclear weapons. We intend to consider future 
reductions in the numbers of deployed and non-deployed nuclear weapons, 
both strategic and non-strategic, and the associated changes in Russian 
forces and other variables that would be required to do so in a manner 
that supports the commitments to stability, deterrence, and assurance. 
A number of factors, identified below, will influence the magnitude and 
pace of future reductions in U.S. nuclear forces below those 
established in the New START Treaty. Any plans to reduce the strategic 
nuclear forces of the United States below the levels prescribed in the 
New START Treaty will be reported to Congress pursuant to Section 1079 
of the National Defense Authorization Act for Fiscal Year 2011.
    Three overarching factors will affect potential future reductions 
to the Nation's nuclear arsenal. First, reductions must occur in the 
context of the NPR-directed goals of strengthening deterrence against 
potential regional adversaries, enhancing strategic stability vis-a-vis 
Russia and China, and maintaining assurance of our Allies and partners. 
This will require an updated assessment of deterrence requirements; 
continued improvements in U.S., Allied, and partner non-nuclear 
capabilities; focused reductions in strategic and nonstrategic weapons; 
and close consultations with Allies and partners. Second, 
implementation of the National Nuclear Security Administration's 
Stockpile Stewardship Program and the nuclear infrastructure 
investments recommended in the NPR, and summarized in the Fiscal Year 
2012 Annual Update to the report pursuant to Section 1251 of the 
National Defense Authorization Act for Fiscal Year 2010, will allow the 
United States to shift from retaining large numbers of non-deployed 
warheads as a hedge against technical or geopolitical surprise toward a 
greater reliance on infrastructure, allowing major reductions in the 
nuclear stockpile. These investments are essential to facilitating any 
reductions while sustaining deterrence under the New START Treaty and 
beyond. Lastly, the size and composition of Russia's nuclear forces 
will remain a significant factor in determining how much and how fast 
the United States is prepared to reduce its forces; therefore, we will 
place importance on Russia joining us as we move to lower levels.
    Mr. Turner. What is your assessment of Chinese intentions in the 
nuclear realm? China continues to modernize and expand its nuclear 
forces while we decrease ours. How does our strategic posture account 
for the uncertainty that China may further build up its forces and seek 
(or exceed) parity with the U.S. and Russia?
    Dr. Perry. It is difficult to assess China's intentions, as it 
remains quite opaque on both its nuclear posture strategy and doctrine. 
At a minimum, China undoubtedly believes it is important to maintain a 
nuclear deterrent that remains credible well into the future. It 
appears to be addressing the vulnerability of its older-generation 
fixed silo-based ICBMs through the deployment of road-mobile ICBMs and 
submarine-based ballistic missiles. It also appears to be addressing 
the ability of its warheads to penetrate missile defenses through the 
development of multiple warhead technology and I would imagine other 
penetration aids as well. The fact that China appears to maintain its 
nuclear warheads separate from its missile delivery systems suggests 
that it does not put a premium on swift nuclear response, which accords 
with its doctrine. I believe that greater clarity on China's part as to 
its intentions, strategy, and doctrine would contribute to greater 
understanding and reduce the chances for misunderstanding between the 
world's two largest economies. I would note that Defense Secretary 
Gates has tried several times in his service under both Presidents Bush 
and Obama to encourage China to be more open on these issues, so it has 
not been for lack of trying on our part that its intentions remain 
uncertain.
    I believe it unlikely that China would seek to attain nuclear 
parity with the United States and Russia given that both we and the 
Russians would detect such an attempt long before China could achieve 
such status. Both Russia and especially the United States would 
undoubtedly respond vigorously to such a challenge. Given Russia and 
our much broader experiences and capabilities in the strategic nuclear 
arena, such a Chinese gamble would run the real risk that China would 
be worse off than if it had not tried. Because the United States has a 
substantially larger nuclear arsenal than China, much greater strategic 
nuclear technical know-how, an active production line of the most 
technologically sophisticated and capable SLBMs in the world, I think 
China would be very ill-advised to make such a challenge, and I believe 
it is unlikely to try. We also can maintain flexibility by ensuring 
that future START-type agreements are of limited duration, with the 
ability to extend them if circumstances permit. This, and the ``supreme 
national interests'' clause that has been a feature of SALT II, START 
I, and New START, provide useful additional flexibility for the United 
States that should also ``deter'' China from seriously considering a 
``sprint to nuclear parity'' in the years ahead.
    Mr. Turner. What conditions do you believe would need to be met in 
order to permit further nuclear force reductions beyond New START 
levels or to permit reductions in U.S. hedge weapons?
    Dr. Perry. Any such comprehensive nuclear arms treaty (CNAT), which 
by including tactical nuclear weapons would move beyond just strategic 
weapons, should be consistent with U.S. national security requirements. 
I believe that any reduction of U.S. hedge weapons, i.e., non-deployed 
warheads, would be greatly facilitated by a successful and verifiable 
resolution of the tactical nuclear weapons issue. We should also be 
confident that we would not require larger numbers of weapons to 
account for strategic uncertainties, such as the deployment of a 
Russian or Chinese missile defense that would call into question the 
credibility of the U.S. nuclear deterrent. An additional way to hedge 
would be to ensure that, as in the previous response, the United States 
only consider CNAT agreements of appropriately limited duration, and 
not of unlimited duration, until such time that the international order 
is conducive for more enduring agreements. I believe that a ratified 
and enforced CTBT would also reduce any strategic uncertainty we or the 
global community might have about possible developments of strategic 
warheads by any state. I believe we have an important strategic 
advantage over China in strategic weapon technology that would be very 
difficult for China to overcome in the presence of a CTBT.
    Mr. Turner. The Strategic Posture Commission observed the nuclear 
weapons infrastructure was ``decrepit'' and the intellectual 
infrastructure was in trouble. Do the Administration's modernization 
plans address these concerns? How would you prioritize these plans and 
what remains your most significant concern?
    Dr. Perry. I believed that the Administration's nuclear weapons 
infrastructure plans as they existed when the SPRC released its report 
in May 2009 were acceptable, although they did run some risks. With the 
additional funding that the Administration has added since that time, 
my remaining concerns are quite satisfied. I remained concerned about 
the long-term viability of the intellectual infrastructure of the 
nuclear weapons enterprise and believe we should take appropriate steps 
to ensure we continue to have the necessary scientific and policy 
expertise required to meet future challenges. These issues are more in 
the educational policy than the technical realm, but they require our 
ongoing attention. The Strategic Posture Review Commission unanimously 
agreed in its report about the need for a stronger intellectual 
infrastructure to support our strategic posture, and I would be 
surprised if the views of the Commission members have changed on this 
score--mine certainly have not.
    Mr. Turner. What is your assessment of Chinese intentions in the 
nuclear realm? China continues to modernize and expand its nuclear 
forces while we decrease ours. How does our strategic posture account 
for the uncertainty that China may further build up its forces and seek 
(or exceed) parity with the U.S. and Russia?
    Dr. Payne. Chinese military doctrine integrates nuclear weapons 
into an overall strategy called ``active defense.'' The Chinese 
declaratory policy of ``no first use'' of nuclear weapons includes 
ambiguities that appear to allow first use in a future conflict. 
Indeed, official, open Chinese doctrinal documents talk about 
``adjusting'' the nuclear use threshold in the event of war in a manner 
that would allow pre-emptive use of nuclear weapons. According to 
available open sources, Chinese intentions with regard to its nuclear 
forces and doctrine are twofold. First, China would like to use nuclear 
weapons to help deter the United States and others from interfering 
with its efforts to expand its political-military influence throughout 
Asia. In short, the goal is to deter the United States and others from 
responding forcefully to politico-military initiatives that China may 
decide to undertake in the region. Second, China sees nuclear weapons 
as potentially contributing in the event of war to the goal of 
defeating U.S. force projection capabilities that otherwise could help 
to defeat Chinese arms in the region. The Chinese nuclear modernization 
program has been in process for decades in line with these two goals, 
and shows no sign of abating. There is, in fact, little uncertainty 
that China intends to continue the modernization of its nuclear and 
conventional forces to meet the strategic goals as described. U.S. 
efforts to gain greater transparency with regard to China's nuclear 
forces or a formal agreement to limit/reduce China's forces have failed 
in the past and will likely fail in the future to the extent that China 
judges increased transparency or limitations to interfere with these 
strategic goals. The apparent direction of the U.S. nuclear strategic 
posture toward deeper nuclear reductions, reduced flexibility, fewer 
options and the avoidance of missile defense capabilities vis-a-vis 
China's strategic forces will help ease the difficulties for China to 
meet its strategic force goals.
    Mr. Turner. What conditions do you believe would need to be met in 
order to permit further nuclear force reductions beyond New START 
levels or to permit reductions in U.S. hedge weapons?
    Dr. Payne. To be prudent, the conditions necessary for further 
significant reductions in our deployed forces or hedges would be: 1) 
either the establishment of a global collective security system with 
authority and power capable of reliably and effectively protecting the 
security of all countries; or, 2) the dramatic peaceful transformation 
of the world political order to such a extent that U.S. leaders and 
others can reliably conclude that the threats and prospective threats 
facing the United States and allies will be limited to such an extent 
that minimum U.S. deterrence capabilities will be adequate to protect 
the United States and assure allies. I see no evidence to suggest that 
either of these conditions is emerging.
    Mr. Turner. The Strategic Posture Commission observed the nuclear 
weapons infrastructure was ``decrepit'' and the intellectual 
infrastructure was in trouble. Do the Administration's modernization 
plans address these concerns? How would you prioritize these plans and 
what remains your most significant concern?
    Dr. Payne. With regard to the weapons infrastructure, I defer to 
the Laboratory Directors who have stated that the level of support to 
which the administration has committed in the 1251 Report update 
appears adequate. Dr. Michael Anastasio, Director of the Los Alamos 
National Laboratory, has testified (March 30, SASC) that he is 
concerned about possible reductions below the 1251 baseline in coming 
budgets. He emphasized the need to sustain focus and budgets over 
several decades and that, ``a national commitment and stable funding to 
go with it are essential elements'' for retaining the highly-skilled 
work force necessary.
    I have two related concerns. First, senior administration officials 
have stated publicly and explicitly that the administration is 
undertaking a review of U.S. nuclear requirements, including a 
targeting review, for the specific purpose of supporting the ``next 
round of nuclear reductions'' by developing ``options for further 
reductions in our current nuclear stockpile.'' U.S. force requirements, 
however, should not be driven by the pursuit of further numeric 
reductions and arms control negotiations, per se, but by the strategic 
goals those forces are intended to serve. In this case, those goals are 
the deterrence of threats to the United States, the extended deterrence 
of threats to allies, the assurance of allies, and the defense of the 
United States and its allies. It is not difficult to rationalize lower 
force requirements if the priority goal used to measure U.S. force 
adequacy is movement to lower force numbers. It may, however, be much 
more difficult if the priority goals of U.S. strategic forces and 
requirements are deterrence, extended deterrence, assurance and 
defense. Unless the metrics for judging the adequacy of U.S. forces 
include these priority goals--as has been the case with every 
Democratic and Republican administration for over five decades--we 
should not expect U.S. forces to be adequate to support those goals.
    Second, if the administration indeed places numeric reductions and 
arms control negotiations as the priority goals to measure the value 
and adequacy of U.S. forces and requirements, the availability of the 
U.S. intellectual and industrial capabilities necessary to sustain 
these forces is likely to wither further. This will simply be the 
result of informed career choices by talented people who will take into 
account the priorities of the U.S. agenda and the related allocation of 
resources--the appearance of declining prioritization and uncertain 
budgets for the U.S. nuclear infrastructure will not be a helpful basis 
for recruitment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ

    Ms. Sanchez. What is the relationship between non-proliferation, 
arms control and extended deterrence (particularly with respect to 
Germany, Japan and Turkey)?
    General Kehler. As stated in the Nuclear Posture Review, the 
security relationships we maintain with our allies are critical in 
deterring potential threats and also serve nonproliferation goals--
demonstrating to neighboring states that the pursuit of nuclear weapons 
will undermine their goal of achieving military or political 
advantages, and reassuring non-nuclear U.S. allies and partners that 
their security interests can be protected without their own nuclear 
deterrent capabilities. U.S. nuclear weapons have played an essential 
role in extending deterrence to our allies. In Europe, the presence of 
U.S. nuclear weapons, combined with NATO's unique nuclear sharing 
arrangements, has contributed to Alliance cohesion and provided 
reassurance to allied and partners who feel exposed to regional 
threats. In Asia, the United States maintains extended deterrence 
through bilateral alliances, security relationships, and through 
forward military presence and security guarantees. The deterrent the 
U.S. extends to its allies relies in part on the credibility of U.S. 
nuclear deterrent forces and policy. The pursuit of arms control 
efforts--including New START, the Comprehensive Nuclear Test Ban 
Treaty, and the Fissile Material Cutoff Treaty strengthens our ability 
to reinforce the non-proliferation regime by visibly addressing our NPT 
commitments.
    Ms. Sanchez. The FY12 budget begins to look at whether we should 
replace the ALCM. What is the impetus behind building a new ALCM and 
have you estimated the costs yet?
    General Kehler. The ALCM is reaching end of life in the mid to late 
2020s. The department has begun the formal process to determine the 
requirement, replacement capability, and cost options. We will have 
more fidelity on this issue over the coming year.
    Ms. Sanchez. What assurances can you make that we are making 
progress toward the goal of deploying cost-operationally effective 
missile defense technology?
    General Kehler. I am confident we are deploying a cost and 
operationally effective system based upon real-world operations such as 
Operation Burnt Frost. Theater High Altitude Area Defense testing is 
providing confidence with 7 of 7 successful shoot downs. Another 
element, the SM-3, a cornerstone of the Phased Adaptive Approach has 
demonstrated 20 of 24 successful intercepts. We are committed to 
seeking every efficiency possible. For example, the use of Aegis Ashore 
demonstrates the transfer of proven missile defense technology into 
different operational basing modes. With each generation of interceptor 
lot buys we are seeing the benefits of production lessons learned and 
best practices which is reducing the cost per interceptor.
    Ms. Sanchez. Are we on track to respond as soon as we are able to 
threats as they develop? Are you concerned that the threat from Iran 
and North Korea are developing faster than the intelligence community 
anticipated?
    General Kehler. We currently have sufficient missile defense 
elements protecting the homeland from a limited Iranian or North Korean 
attack. I am confident our investment in missile defense research and 
development provides adequate flexibility against unanticipated 
threats, and the Phased Adaptive Approach provides a flexible strategy 
to address these threats should they emerge. We are constantly 
assessing each element in our missile defense program for options to 
accelerate capability across a range of scenarios and a hedge strategy 
will be completed soon.
    Ms. Sanchez. What are the main challenges for the newly created 
CYBERCOM, and how will these be addressed?
    General Kehler. Tasked to secure the DoD's networks, U.S. Cyber 
Command faces significant capacity, capability, and policy challenges. 
Specifically, U.S. Cyber Command faces a shortfall of cyber force 
capacity to plan, operate, and defend our networks and ensure freedom 
of action and maneuver in cyberspace. While they have begun to take 
advantage of significant efficiencies in designing and managing our 
information technology architecture, the sheer scale of DoD networks 
makes configuration management and common awareness of activities a 
significant challenge. Finally, there are still a number of policy and 
procedural issues to resolve to ensure we can effectively partner with 
the interagency, private sector, and allies to confront cyber threats.
    In order to best manage risk, ensure U.S. and allied freedom of 
action, and develop integrated capabilities in cyberspace, U.S. Cyber 
Command is actively implementing five strategic initiatives:

    <bullet>  Treat cyberspace as an operational domain to organize, 
train, and equip so that DoD can take full advantage of cyberspace's 
potential in its military, intelligence, and business operations
    <bullet>  Employ new defense operating concepts, including active 
cyber defense, to protect DoD networks and systems
    <bullet>  Partner closely with other U.S. government departments 
and agencies and the private sector to enable a whole-of-government 
strategy and a nationally integrated approach to cybersecurity
    <bullet>  Build robust relationships with U.S. allies and 
international partners to enable information sharing and strengthen 
collective cyber security.
    <bullet>  Leverage the nation's ingenuity by recruiting and 
retaining an exceptional cyber workforce and enabling rapid 
technological innovation

    U.S. Cyber Command's synergy with National Security Agency/Central 
Security Service's (NSA/CSS) infrastructure and expertise provides a 
significant advantage in this task.
    Ms. Sanchez. What would the benefits and drawbacks be of acceding 
to the European Union proposed Code of Conduct for Space?
    General Kehler. I agree in principle with the pursuit of voluntary 
guidelines and international norms that promote standards, safe and 
responsible operations, and a sustainable space domain. Any such 
guidelines or norms of behavior should enhance the security, safety, 
and sustainability of all outer space activities. USSTRATCOM is working 
with the Joint Staff to conduct an Operations Assessment of the Code to 
identify potential impacts or risks to military space operations now 
and in the future. The assessment will be completed by 31 May.
    Ms. Sanchez. What is the relationship between non-proliferation, 
arms control and extended deterrence (particularly with respect to 
Germany, Japan and Turkey)?
    Dr. Miller. Non-proliferation, arms control, and extended 
deterrence can and should be mutually reinforcing to support global 
strategic stability.
    Arms control relates to non-proliferation through the important 
role it plays in the international nuclear non-proliferation regime. 
The cornerstone of this regime, the Treaty on the Non-Proliferation of 
Nuclear Weapons (NPT), is built on a basic bargain--countries with 
nuclear weapons will move toward disarmament; countries without nuclear 
weapons will not acquire them; and all countries can access peaceful 
nuclear energy. Arms control efforts are concrete steps that nuclear 
weapons States can take to fulfill the first tenet of that bargain, 
captured in Article VI of the NPT, to make progress toward disarmament. 
Toward that end, ratification of the New START Treaty with Russia is a 
significant achievement of the world's two largest nuclear powers to 
reduce their nuclear arms, build trust, promote stability, and meet 
their obligations under the NPT. These actions highlight the non-
compliance of States such as Iran and North Korea and can help garner 
support from the rest of the international community to condemn the 
actions of non-compliant States and work toward continued strength of 
the non-proliferation regime.
    Extended deterrence supports non-proliferation by promoting 
confidence among U.S. Allies, including Germany, Japan, and Turkey--and 
especially those countries technically capable of developing and 
possessing nuclear weapons--that the United States is committed to 
their security and that obtaining nuclear weapons is, therefore, 
unnecessary and not in their national interests. In turn, U.S. extended 
deterrence commitments are reinforced by reductions in nuclear weapons. 
The consultative processes of well-constructed arms control agreements 
increase transparency and promote stability among participating States. 
Collectively, these efforts diminish the salience of nuclear weapons in 
international affairs and demonstrate U.S. progress in moving step-by-
step toward their elimination.
    Extended deterrence, arms control, and non-proliferation work 
synergistically to strengthen deterrence, enhance strategic stability, 
and assure our Allies and partners of the U.S. commitment to their 
defense and the improvement of international security broadly.
    Ms. Sanchez. The FY12 budget begins to look at whether we should 
replace the ALCM. What is the impetus behind building a new ALCM and 
have you estimated the costs yet?
    Dr. Miller. The Department of Defense is committed to continued 
Long-Range Stand-Off (LRSO) missile capability, which provides an 
important capability for existing long-range aircraft and calls for 
future long-range aircraft capability to deliver weapons, even in the 
event of significant advances in air defenses by potential adversaries. 
The Air Force has programmed $0.9 billion for research, development, 
test, and evaluation over the next five years for the development of 
the LRSO. At this time, we do not have a program cost estimate, 
although we expect to have program costs defined by 4th quarter of 
Fiscal Year 2013.
    Ms. Sanchez. What assurances can you make that we are making 
progress toward the goal of deploying cost-operationally effective 
missile defense technology?
    Dr. Miller. The Administration is committed to deploying 
capabilities that have been proven effective under extensive testing 
and assessment and are affordable over the long term.
    To strengthen the testing program, a number of steps are being 
taken. This commitment reflected our assessment that it is no longer 
necessary to pursue a high-risk acquisition strategy that 
simultaneously develops and deploys new systems. The Integrated Master 
Test Plan announced in June 2009, and updated every six months since 
that time, reflects the Missile Defense Agency's new approach. This 
program sets out test activities over the full course of each system's 
development, not just two years into the future as was the case under 
the former program. These activities include a comprehensive set of 
ground and flight tests designed to demonstrate operational performance 
and validate models used to support an evaluation of system 
effectiveness.
    To ensure adequate oversight of the missile defense program, DoD 
has enhanced the roles and responsibilities of the Missile Defense 
Executive Board (MDEB). Established in March 2007, the MDEB provides 
oversight and guidance in a collaborative mode involving all missile 
defense stakeholders in DoD and some from outside DoD.
    Ms. Sanchez. Are we on track to respond as soon as we are able to 
threats as they develop? Are you concerned that the threat from Iran 
and North Korea are developing faster than the intelligence community 
anticipated?
    Dr. Miller. Yes, we are on track to respond to ballistic missile 
threats as they develop. Our current ballistic missile defense posture 
already protects us against the potential emergence of an Iranian or 
North Korean ICBM threat.
    Although there is some uncertainty about when and how the ICBM 
threat to the U.S. homeland will mature, the Administration is taking 
several steps to maintain and improve the protection of the homeland 
from the potential ICBM threat posed by Iran and North Korea. These 
steps include the continued procurement of ground-based interceptors 
(GBIs), the procurement and deployment of additional sensors, and 
upgrades to the Command, Control, Battle Management, and Communications 
(C2BMC) system.
    We are also taking steps to hedge against the possibility that 
threats might evolve more rapidly than planned capability enhancements, 
or that those capability enhancements may be delayed for technical 
reasons. The Administration is completing construction of eight 
additional silos at Missile Field Two in Fort Greely, Alaska, and 
continuing development and testing of the two-stage GBI. Additionally, 
six silos in Missile Field One at Fort Greely will be placed in a 
storage mode for possible upgrade for operational use in the future. 
The Administration is considering additional steps to strengthen the 
U.S. hedge posture, and we will brief this subcommittee on the results 
in a classified setting.
    Ms. Sanchez. What are the main challenges for the newly created 
CYBERCOM, and how will these be addressed?
    Dr. Miller. U.S. Cyber Command (USCYBERCOM), as a newly organized 
sub-unified command, is working to address several challenges in order 
to meet the Command's mission requirements.
    A key challenge is developing a command and control structure that 
balances the global operations and defense responsibilities of 
USCYBERCOM with the responsibilities and requirements of the regional 
combatant commanders. USCYBERCOM is working with the Joint Staff and 
several regional combatant commands to explore alternative approaches, 
and identify the most effective command and control structures.
    In terms of capacity, USCYBERCOM is focused on building the cyber 
force. This involves recruiting new talent; training, credentialing, 
and certifying the cyber workforce; and retaining the right force for 
the future.
    In terms of capability, USCYBERCOM is focused on improving 
situational awareness and security of own networks. In order to do 
this, DOD must provide effective configuration management of legacy 
systems and hunt effectively on our own networks, while working toward 
developing a single DOD enterprise, thereby providing a more agile and 
active defense for our information systems.
    In the policy arena, USCYBERCOM is working with the Department's 
Cyber Policy Office to address the concern that DoD's networks ride on 
a global commercial infrastructure that is inherently vulnerable and 
open to intrusion, denial, destruction, and exploitation. To secure DoD 
systems and the information and systems of the Defense Industrial Base 
more effectively, USCYBERCOM and DoD are working with our interagency 
partners to improve information sharing with, and the cybersecurity of, 
the private sector, our Allies/partners, and other departments and 
agencies of the U.S. Government.
    Ms. Sanchez. Can you give us an update on where the Administration 
is with regard to export control reform and how this will affect the 
space industry?
    Dr. Miller. We are making significant progress toward reforming the 
U.S. export control system in order to make it more effective, 
efficient, and transparent. Our reform effort is being conducted in 
three phases and focuses on the ``four singles'' of export control 
reform: a single control list, a single licensing agency, a single 
export enforcement coordination center, and a single U.S. Government-
wide electronic information technology (IT) licensing system. We have 
completed important regulatory changes to encryption and dual-national 
controls in Phase I, and Phase II activities are well underway. For 
example, we have been making significant progress toward the creation 
of a single control list. The Department of Defense has taken the lead 
in rewriting the U.S. Munitions List (USML), including Category XV, 
which deals with spacecraft. We will also begin revising and 
``tiering'' dual-use controls in the near future so that the USML and 
the Commodities Control List (CCL) can be merged into one. On the 
single IT system, the Department has been designated as the Executive 
Agent for the new U.S. Government-wide export licensing system that 
will be based on DoD's USXPORTS system. We are working with the 
Departments of Commerce and State to establish connectivity with the 
USXPORTS system. The Executive Order establishing the Enforcement 
Coordination Center was signed by the President in November 2010, and 
efforts are underway to establish the Center.
    We have not completed our rewrite of controls on spacecraft in the 
USML; therefore, I cannot provide a detailed assessment at this time of 
the impacts on the U.S. space industry. However, consistent with our 
overall approach to export control reform, I expect that we will 
propose ``higher fences around fewer items,'' and increase transparency 
and predictability, so that the U.S. space industry will be able to 
compete globally more efficiently. We are well aware that current U.S. 
law limits the flexibility of the President in this area. I look 
forward to working with Congress on any legislative changes that may be 
required to implement proposed changes.
    Ms. Sanchez. What would the benefits and drawbacks be of acceding 
to the European Union proposed Code of Conduct for Space?
    Dr. Miller. There are many potential benefits to the EU's proposed 
international Code of Conduct for Space. The proposed international 
Code of Conduct calls on subscribing states to refrain from activities 
that create long-lived debris and to notify certain space activities, 
including those that might risk creating debris. Space debris is a 
growing concern for all space-faring nations.
    Another benefit is that the EU's proposed international Code of 
Conduct reinforces key space norms that the U.S. Government has already 
endorsed, including pre-launch notifications under the Hague Code of 
Conduct, UN Debris Mitigation Standards, and safety of flight practices 
to share collision warning information.
    Additionally, the EU's proposed international Code of Conduct 
explicitly recognizes nations' inherent right of self-defense. This 
preserves considerable flexibility to implement the National Security 
Space Strategy, issued by the Department of Defense and the Office of 
the Director of National Intelligence. The Code of Conduct would not 
constrain either the development of the full range of space 
capabilities, nor the ability of the United States to conduct necessary 
operations in crisis or war.
    Ms. Sanchez. What is the relationship between non-proliferation, 
arms control and extended deterrence (particularly with respect to 
Germany, Japan and Turkey)?
    Dr. Perry. All three of these areas are important components of 
broader U.S. strategic posture. Turkey, and especially Germany and 
Japan, have the potential to become nuclear weapons powers rather 
quickly were they to decide to do so. However, under extended 
deterrence, U.S. security assurances, including nuclear assurances, 
virtually eliminate any incentives they or our other allies and friends 
may have to acquire their own nuclear weapons capabilities. Without a 
policy of extended deterrence we would face a highly proliferated 
nuclear world, a world that would be much more unstable than we face 
today. Arms control relates to extended deterrence by reassuring our 
allies and friends that the potential Russian nuclear threat is 
bounded, thus fostering a climate of cooperation that these countries, 
most of whom lie much closer to Russia than does the United States, 
very much support, given the dangers they fear could arise if U.S.-
Russian relations grew tense and hostile.
    Finally, arms control and non-proliferation are linked in several 
ways. The United States and Russia are both obligated under Article VI 
of the NPT to work toward nuclear disarmament, offering our allies, and 
all countries the prospect of ultimate freedom from nuclear threats at 
some point in the distant future. U.S. participation in the arms 
control process thus gives these countries important additional 
incentives to cooperate with the United States in our non-proliferation 
efforts, working together to block the transfer of nuclear-related 
technologies and equipment to countries seeking to acquire nuclear 
capabilities. Effective non-proliferation strategies, supporting 
verification agreements, and monitoring technologies, also reassure the 
United States and Russia that they do not need to develop or build 
additional nuclear weapons to guard against new nuclear-armed states. 
As Russia and the U.S. have similar non-proliferation interests, 
progress and cooperation in both arms control and non-proliferation 
helps contribute to greater trust and improved relations between the 
two countries, helping to set conditions for future work on tactical 
and non-deployed nuclear weapons.
    Ms. Sanchez. What is the relationship between non-proliferation, 
arms control and extended deterrence (particularly with respect to 
Germany, Japan and Turkey)?
    Dr. Payne. The relationship among non-proliferation, arms control 
and extended deterrence is the subject of considerable controversy. 
Despite numerous confident claims with regard to this relationship, 
there are few basic facts that allow for confident claims to be made 
reasonably. For example, the frequent confident claim that further 
bilateral or multilateral agreements to reduce nuclear weapons among 
the nuclear states will contribute significantly to non-proliferation 
is highly speculative. There is no convincing evidence to support the 
expectation that a strengthened non-proliferation norm will emerge from 
such agreements and empower more effective global non-proliferation 
efforts. Despite the many confident claims of this linkage, there is 
insufficient evidence to conclude that these represent reasonable 
expectations. Indeed, the deep reductions in U.S. and Russian strategic 
nuclear weapons since the end of the Cold War seem to have had no such 
positive effect and the potential reduction in the credibility of the 
U.S. extended nuclear deterrent will incentivize proliferation in some 
cases.
    There are, however, some basic facts in this regard that can be 
highlighted. First, some U.S. allies, notably those who face 
significant threats, including nuclear threats, or who see the 
potential for greatly increased nuclear threats in their regions, have 
expressed increasing concerns about the future credibility of the U.S. 
extended nuclear deterrent. They understandably see negative 
implications for their security in the potential degradation of the 
credibility of the U.S. nuclear umbrella. Some of these allies, 
implicitly or explicitly, have indicated that they do see the U.S. 
focus on nuclear force reductions and movement toward nuclear zero as 
contributing to the prospective degradation of U.S. credibility, and 
thus to the degradation of their own security. One option that these 
allies may consider if they no longer can rely on the U.S. nuclear 
deterrent for their security is the acquisition of their own 
independent nuclear deterrent forces. Some Japanese and South Korean 
commentators and officials have pointed to this possibility.
    There are internal debates along these lines within allied 
countries and baring some dramatic new threat developments, of the 
countries identified in the question, my opinion is that we are 
unlikely to see this concern and consequence in Germany. The prospects 
are, I suspect, somewhat higher for Japan and Turkey given the threats 
and emerging threats these two allies face.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. We all recall the difficulties surrounding the 
ratifying of the New START treaty, one of which was whether or not the 
treaty affected our ability to deploy missile defenses in Europe. There 
are media reports suggesting that Russia is apparently determined to 
make any potential negotiations on tactical nuclear-weapon curbs 
contingent on U.S. concessions over plans to deploy missile defenses in 
Europe and note Russian warnings that it might withdraw from New START 
if the U.S. increases the capability of its missile defenses. If you 
were directed to deploy missile defenses in Europe today, how long will 
it be before such a system were operation, and in your opinion, what 
will be Russia's response regarding their commitment to New START?
    General Kehler. U.S. Strategic Command is responsible for 
synchronizing planning for global missile defense, in coordination with 
other combatant commands and the services, but we do not serve as the 
force provider of missile defense assets. The President has already 
directed the deployment of missile defense assets to Europe in 
coordination with our NATO allies. U.S. Strategic Command fully 
supports this effort. Phase 1 of the European Phased Adaptive Approach 
(PAA) should be complete by late 2011 and provide an initial defensive 
capability against short-, medium-, and intermediate-range ballistic 
missiles using the Aegis BMD 3.6.1 weapon system with SM-3 IA 
interceptors and forward-based AN/TPY-2 and SPY-1 radars. The United 
States clearly stated on 7 April 2010 that our ``missile defense 
systems are not intended to affect the strategic balance with Russia'' 
and that ``The United States intends to continue improving and 
deploying its missile defense systems in order to defend itself against 
limited attack and as part of our collaborative approach to 
strengthening stability in key regions.'' I look forward to any role 
USSTRATCOM may play in ongoing cooperation with our Russian partners.
    Mr. Franks. When the Phased Adaptive Approach was first introduced, 
deadlines for each phase were set under the impression that long-range 
missile threats were ``slow to develop.'' Recently you made remarks 
that suggest North Korea's ICBM and nuclear developments are proceeding 
faster than expected. This raises concerns that the PAA will not be 
available to defend against long-range ICBMs before North Korea 
develops this capability.
    In the interim, there must be a hedging strategy. Please identify 
the hedging strategy you will pursue to defend our Nation's Homeland in 
the event that North Korea or another rogue nation acquires ICBM 
capability earlier than expected or if the new Next Generation Aegis 
Missile has technical problems. Particularly, does the GMD two stage 
interceptor remain a realistic and flexible hedge against these 
advancing threats? Also, what is the timeline for a decision on this 
strategy?
    Furthermore, do you have an assessment of other nations' timeline 
of achieving ICBM and nuclear capabilities able to threaten our 
homeland, particularly Iran's program.
    If not, what is being done to make an accurate assessment of their 
developments?
    General Kehler. The United States is currently protected against 
limited ICBM attacks. The United States has 30 deployed ground-based 
interceptors (GBIs) and is continuing improvements in the ground-based 
midcourse defense (GMD) system to address potential North Korean and 
Iranian long-range ballistic missile capabilities. The United States 
already possesses the capability to counter the projected threat from 
North Korea and Iran.
    Any decision to deploy elements of the hedge will be based on a 
combination of factors such as threat advancements or delays in SM-3 
test progress. I am confident of the intelligence community assessments 
of timelines for threat development. As an adaptive strategy, the 
Phased Adaptive Approach is tailored to respond to adversary 
development, and has the inherent flexibility to meet unanticipated 
Iranian threats. The Department is in the process of finalizing and 
refining its hedge strategy, and will return to brief this subcommittee 
on the results in a classified setting in the next several weeks.
    Mr. Franks. We all recall the difficulties surrounding the 
ratifying of the New START treaty, one of which was whether or not the 
treaty affected our ability to deploy missile defenses in Europe. There 
are media reports suggesting that Russia is apparently determined to 
make any potential negotiations on tactical nuclear-weapon curbs 
contingent on U.S. concessions over plans to deploy missile defenses in 
Europe and note Russian warnings that it might withdraw from New START 
if the U.S. increases the capability of its missile defenses. If you 
were directed to deploy missile defenses in Europe today, how long will 
it be before such a system were operation, and in your opinion, what 
will be Russia's response regarding their commitment to New START?
    Dr. Miller. The USS MONTEREY, a guided missile cruiser equipped for 
ballistic missile defense, will deploy in a few days to the 
Mediterranean Sea for a six-month mission. This is the start of Phase 1 
of the European Phased Adaptive Approach (EPAA). As soon as the 
MONTEREY arrives on station, it will provide initial operational 
missile defense capabilities in Europe.
    I do not expect any particular Russian response to the deployment 
of the USS MONTEREY. Russia's stated concerns about the European Phased 
Adaptive Approach (EPAA) have focused on Phases 3 and 4, planned for 
2018 and 2020 respectively. Both before and after the ratification of 
New START, various U.S. interlocutors have explained to their Russian 
counterparts that the EPAA will not pose a threat to Russia's offensive 
missile forces.
    Because the EPAA does not threaten Russia's strategic deterrent, I 
do not believe that Russia will have any reason to withdraw, or 
threaten to withdraw, from the New START Treaty.
    Mr. Franks. When the Phased Adaptive Approach was first introduced, 
deadlines for each phase were set under the impression that long-range 
missile threats were ``slow to develop.'' Recently you made remarks 
that suggest North Korea's ICBM and nuclear developments are proceeding 
faster than expected. This raises concerns that the PAA will not be 
available to defend against long-range ICBMs before North Korea 
develops this capability.
    In the interim, there must be a hedging strategy. Please identify 
the hedging strategy you will pursue to defend our Nation's Homeland in 
the event that North Korea or another rogue nation acquires ICBM 
capability earlier than expected or if the new Next Generation Aegis 
Missile has technical problems. Particularly, does the GMD two stage 
interceptor remain a realistic and flexible hedge against these 
advancing threats? Also, what is the timeline for a decision on this 
strategy?
    Furthermore, do you have an assessment of other nations' timeline 
of achieving ICBM and nuclear capabilities able to threaten our 
homeland, particularly Iran's program.
    If not, what is being done to make an accurate assessment of their 
developments?
    Dr. Miller. The United States is currently protected against 
limited ICBM attacks. The United States has 30 deployed ground-based 
interceptors (GBIs) and is continuing improvements in the ground-based 
midcourse defense (GMD) system to address potential North Korean and 
Iranian long-range ballistic missile capabilities. The United States 
already possesses the capability to counter the projected threat from 
North Korea and Iran. The Intelligence Community continues to assess 
and evaluate Iranian and North Korean progress toward achieving ICBM 
and nuclear capabilities that could threaten the U.S. homeland.
    The Department is in the process of finalizing and refining its 
hedge strategy, and we will be pleased to brief this subcommittee on 
the results in a classified setting when it is complete.
    Mr. Franks. We all recall the difficulties surrounding the 
ratifying of the New START treaty, one of which was whether or not the 
treaty affected our ability to deploy missile defenses in Europe. There 
are media reports suggesting that Russia is apparently determined to 
make any potential negotiations on tactical nuclear-weapon curbs 
contingent on U.S. concessions over plans to deploy missile defenses in 
Europe and note Russian warnings that it might withdraw from New START 
if the U.S. increases the capability of its missile defenses. If you 
were directed to deploy missile defenses in Europe today, how long will 
it be before such a system were operation, and in your opinion, what 
will be Russia's response regarding their commitment to New START?
    Dr. Perry. The key to understanding Russia's edginess about U.S. 
strategic missile defenses is to recognize that Russia is strongly 
committed to maintaining a credible nuclear deterrent, just as is the 
United States, especially given Russia's substantial conventional 
military and technological inferiority compared to the United States 
and the status that their nuclear arsenal gives them on the world 
stage. Accordingly, Russia becomes uneasy in the face of external 
developments that have the potential to diminish the credibility of 
their nuclear deterrent. This of course does not mean that the United 
States should not deploy strategic missile defenses appropriate to our 
needs--I continue to support the deployment of a missile defense shield 
to defend against limited threats from countries like Iran or North 
Korea. The need for missile defenses in Europe is related to defending 
our allies and friends in that area from ballistic missile threats and 
I support the Phased Adaptive Approach (PAA) strategy. The PAA 
timetable for deployments in Europe appears realistic to me.
    Russia will likely express uneasiness about this deployment unless 
we are able to negotiate a level of missile defense cooperation in PAA 
development that is acceptable to both the United States and Russia, 
and I believe that we should try to achieve such cooperation. However, 
Russia remains strongly interested in limiting U.S. strategic offensive 
forces and would be unlikely to withdraw from New START unless 
convinced that U.S. missile defense deployments would pose so 
substantial a threat to Russia's own deterrent force that it would need 
to increase its strategic nuclear force as a counter-move.
    I would also note that if the roles were reversed, and Russia--or 
China, for that matter--was deploying significant levels of modern 
strategic defenses, the United States would likely feel uneasy in a 
similar manner about possible substantial Russian or Chinese strategic 
defense deployments. Russia and the United States do not see eye-to-eye 
on the subject of missile defenses, and I support the U.S. position, 
but I believe it is incorrect to impute dark designs to Russia's 
expressed concerns on this subject. They are determined to maintain a 
credible strategic nuclear deterrent, and so are we.
    Finally, I would direct anyone interested in this subject to the 
language on strategic missile defense of the 2009 report of the 
Strategic Posture Review Commission, which the Commission unanimously 
supported and which remains as valid today as it was in 2009:

          For more than a decade the development of U.S. ballistic 
        missile defenses has been guided by the principles of (1) 
        protecting against limited strikes while (2) taking into 
        account the legitimate concerns of Russia and China about 
        strategic stability. These remain sound guiding principles. 
        Defenses sufficient to sow doubts in Moscow or Beijing about 
        the viability of their deterrents could lead them to take 
        actions that increase the threat to the United States and its 
        allies and friends. Both Russia and China have expressed 
        concerns. Current U.S. plans for missile defense should not 
        call into question the viability of Russia's nuclear deterrent. 
        China sees its concerns as more immediate, given the much 
        smaller size of its nuclear force. U.S. assessments indicate 
        that a significant operational impact on the Chinese deterrent 
        would require a larger and more capable defense than the United 
        States has plans to construct, but China may already be 
        increasing the size of its ICBM force in response to its 
        assessment of the U.S. missile defense program.
                America's Strategic Posture, Report of the 
                Congressional Commission on the Strategic Posture of 
                the United States, United States Institute of Peace 
                Press, 2009, p. 32.

    The United States should absolutely deploy the missile defenses we 
need, but we would run important and unnecessary risks if we deployed, 
or seemed seriously interested in deploying, defenses in excess of that 
needed to defend against limited threats.
    Mr. Franks. We all recall the difficulties surrounding the 
ratifying of the New START treaty, one of which was whether or not the 
treaty affected our ability to deploy missile defenses in Europe. There 
are media reports suggesting that Russia is apparently determined to 
make any potential negotiations on tactical nuclear-weapon curbs 
contingent on U.S. concessions over plans to deploy missile defenses in 
Europe and note Russian warnings that it might withdraw from New START 
if the U.S. increases the capability of its missile defenses. If you 
were directed to deploy missile defenses in Europe today, how long will 
it be before such a system were operation, and in your opinion, what 
will be Russia's response regarding their commitment to New START?
    Dr. Payne. I defer to DOD officials with the responsibility for 
missile defense research, development and deployment for estimates of 
the timelines involved for the deployment of the four phases of the 
PAA. The linkage between U.S. missile defense deployment and the 
Russian commitment to New START is open to informed comment.
    Russian officials see the U.S. desire for New START implementation 
and for further arms control agreements as the leverage necessary to 
gain some level of control over the U.S. missile defense program. They 
seek to exploit U.S. fears by threatening to withdraw from New START if 
U.S. missile defense threatens their nuclear deterrent capabilities and 
to exploit U.S. hopes for further nuclear reductions in order to secure 
limits on U.S. missile defenses and the transfer of U.S. missile 
defense technical know-how to Russia. This is why Russian officials 
have linked Russian implementation of New START and the potential for 
limitations on Russian tactical nuclear weapons to U.S. concessions on 
U.S. missile defense programs and possible U.S. conventional strategic 
weapons programs (Prompt Global Strike). Specifically, Russian 
officials have warned that no further arms control progress will be 
possible unless the United States agrees to a joint missile defense 
system with Russia or accepts geographical, technical, and operational 
restrictions on U.S. missile defense capabilities.
    My expectation, however, is that Russia sees New START as greatly 
in its interest. Russian leaders have now repeatedly stated that New 
START demands reductions only by the United States--a point made by New 
START critics in 2010. Russia apparently will require years to build up 
its forces to reach New Start limits. Consequently, Russia ultimately 
will not withdraw from the treaty even if the U.S. goes forward in a 
measured way with all four phases of its missile defense program. 
Rather, the Russian hope is that its linkage of New START and further 
arms control possibilities to limits on U.S. missile defense, 
complemented by the vocal repetition of this linkage by domestic 
American critics of U.S. missile defense, will be sufficient to secure 
its desired limits on U.S. missile defense. For Russia, the existence 
of negotiations alone may serve this purpose; an agreement may be 
unnecessary. Russian officials will push hard and vocally on this 
linkage, but hope to achieve their goals short of being pressed to the 
point of actually withdrawing from New START. In the past, Soviet 
leaders engaged in this same type of highly-visible negotiating 
hardball with President Reagan. They were dissatisfied with U.S. 
actions regarding INF and following many similar threats, withdrew from 
negotiations. But President Reagan remained firm in response and the 
Soviets soon returned to negotiations.
    With regard to future limitations on Russian tactical nuclear 
weapons, my expectation is that Russia will not agree to any 
significant limitations on its tactical nuclear forces if the U.S. 
demands an associated intrusive monitoring and verification regime. 
Given the state of Russia's conventional defensive capabilities and the 
limited prospect for serious Russian military reform, tactical nuclear 
weapons will remain the centerpiece of Russia's defensive strategies 
vis-a-vis NATO, China and others. Consequently, Russian officials may 
seek to trade some modest increase in transparency and nominal, largely 
unverifiable, numeric limitations on its tactical nuclear weapons in 
exchange for geographical, technical, and operational restrictions on 
U.S. missile defense capabilities. But, if pressed for an agreement 
that requires effective verification and deep reductions in Russia's 
tactical nuclear forces, Russia is unlikely to agree even if the United 
States is willing to concede to Russia's preferred limits on U.S. 
missile defense. Russia is unlikely to accept such an agreement on 
tactical nuclear weapons under virtually any plausible conditions, 
which is why New START is not likely to prove to be, as was advertised, 
the first step toward a verifiable, equitable agreement on tactical 
nuclear weapons.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH

    Mr. Heinrich. General Kehler, in your submitted testimony you 
address industrial base concerns in respect to space requirements and 
explain that, ``Many suppliers struggle to remain competitive as demand 
for highly specialized components and existing export controls reduce 
their customers to a niche government market.''
    I couldn't agree more. Our decades-old system for export controls 
is largely a Cold War legacy that is preventing high tech industries 
from selling less sensitive items that are readily available in other 
industrialized countries.
    Dr. Miller indicated there are more than 60 nations and government 
consortia currently operating satellites, and the United States share 
of worldwide satellite manufacturing has dropped from approximately 65 
percent in 1997 to approximately 30 percent in 2008.
    I also think it's important to note that many companies in Europe 
and elsewhere tout their satellites and components as ``ITAR-free.''
    Eliminating unnecessary controls will make us more competitive, 
create jobs, and boost exports.
    This committee actually worked to include a Section in the FY10 
NDAA conference report that required an assessment of which 
technologies may be candidates for removal from the U.S. Munitions list 
as well as the implications of doing so, but this report has been 
delayed by over a year.
    What is the status of the 1248 report? Can you speak a little about 
the urgency for reforming our outdated system in a way that both makes 
sense from both a security and economic standpoint? How can we actively 
promote the sale of capabilities developed by U.S. companies to partner 
nations?
    General Kehler. I understand that the final ``1248 Report'' or 
``Risk Assessment of U.S. Space Export Control Policy'' is in 
coordination between the Departments of Defense and State. The final 
report was originally delayed to ensure congruence with the National 
Space Policy, which has since been completed and released. USSTRATCOM 
has reviewed this document and provided feedback to the Joint Staff.
    One of the defining characteristics of today's national security 
operating environment is the extraordinary pace of technological 
change--a rate that continues to grow, increasing the level of 
difficulty for U.S. companies to compete in the global marketplace. At 
the same time, decreased competitiveness in the U.S. industrial base 
can portend fewer advancements and greater difficulty maintaining a 
competitive edge in space technology. This in turn, could have 
significant, negative national security implications, if neither the 
industrial base nor cutting-edge technology is available. In short, 
diminishing U.S. commercial space industry leadership is a step toward 
diminishing overall U.S. leadership in space--steps we can ill afford 
to take, especially at today's pace of global change. Effective export 
policies, as outlined in the National Space Policy, require analyses 
and reforms that should begin as soon as possible. Our commercial and 
security interests will be far better served by a more agile, 
transparent, predictable, and efficient export control regime.
    This is best addressed by the private sector or departments of the 
government responsible for export promotion. However, U.S. leadership 
is by far the most important means of ensuring the strength of our U.S. 
commercial space industrial base. Export control reform should ease the 
transfer of less-sensitive products and technologies to key allies and 
partners with whom we seek interoperable solutions.
    Mr. Heinrich. You highlighted the importance of funding our nuclear 
weapons complex in your testimony and expressed specific concerns with 
the proposed year-long House CR that would cut in half the additional 
funding for Weapons Activities.
    This cut deeply concerns me, as well as the significant cut to 
nonproliferation-- $647M. How will these cuts impact our nuclear 
weapons complex overall modernization plans and how will these cuts 
affect the New START Treaty?
    General Kehler. Proposed cuts will jeopardize and delay necessary 
recapitalization of the nuclear weapons complex as well as negatively 
impact our ability to sustain the stockpile. Although I cannot speak 
for the National Nuclear Security Administration, we anticipate they 
will prioritize available resources to support the reconfiguration of 
our strategic forces in accordance with the New START Treaty.
    Mr. Heinrich. General Kehler, in your submitted testimony you 
address industrial base concerns in respect to space requirements and 
explain that, ``Many suppliers struggle to remain competitive as demand 
for highly specialized components and existing export controls reduce 
their customers to a niche government market.''
    I couldn't agree more. Our decades-old system for export controls 
is largely a Cold War legacy that is preventing high tech industries 
from selling less sensitive items that are readily available in other 
industrialized countries.
    Dr. Miller indicated there are more than 60 nations and government 
consortia currently operating satellites, and the United States share 
of worldwide satellite manufacturing has dropped from approximately 65 
percent in 1997 to approximately 30 percent in 2008.
    I also think it's important to note that many companies in Europe 
and elsewhere tout their satellites and components as ``ITAR-free.''
    Eliminating unnecessary controls will make us more competitive, 
create jobs, and boost exports.
    This committee actually worked to include a Section in the FY10 
NDAA conference report that required an assessment of which 
technologies may be candidates for removal from the U.S. Munitions list 
as well as the implications of doing so, but this report has been 
delayed by over a year.
    What is the status of the 1248 report?
    Dr. Miller. The report required by Section 1248 of the National 
Defense Authorization Act for Fiscal Year 2010 is currently in 
coordination. It was originally delayed to ensure that it could take 
account of the new National Space Policy, which was completed in June 
2010, and the National Security Space Strategy, released in January 
2011. In preparing the Section 1248 report, DoD has worked with the 
Department of State and a broad cross section of organizations, 
including the intelligence community, NASA, and the Department of 
Commerce. Many DoD organizations, including those in the acquisition, 
policy, and operations communities, participated in the preparation of 
the report. We are working to complete coordination so that we can 
provide the report to Congress as soon as possible.
    Mr. Heinrich. Can you speak a little about the urgency for 
reforming our outdated system in a way that both makes sense from both 
a security and economic standpoint?
    Dr. Miller. There are compelling security arguments for 
fundamentally changing the regulations and procedures we have had in 
place since the Cold War for exporting weapons and dual-use equipment 
and technology. Over the years, we have made incremental changes--but 
this is not enough. We need to establish new rules, organizations, and 
processes that deal effectively and efficiently with 21st Century 
challenges. This is the basis for the ``four singles'' of our export 
control reform effort: a single control list, a single licensing 
agency, a single enforcement coordination center, and a single 
information technology (IT) system for export licensing. The export 
control reform initiative is focused on protecting items and 
technologies that are the U.S. ``crown jewels.'' By doing so, we will 
be better able to monitor and enforce controls on technology transfers 
with real security implications while helping to speed the provision of 
equipment to Allies and partners who fight alongside us in coalition 
operations. A more efficient export control system, based on revised 
controls and new licensing policies and procedures, would allow U.S. 
companies to compete more effectively in the world marketplace.
    Mr. Heinrich. How can we actively promote the sale of capabilities 
developed by U.S. companies to partner nations?
    Dr. Miller. This is an area more appropriately addressed by the 
private sector or U.S. Government departments and agencies with export 
promotion responsibilities. However, we expect that export control 
reform would result in the ease of transfers of many less-sensitive 
items and technologies to U.S. Allies and partners.
    Mr. Heinrich. You highlighted the importance of funding our nuclear 
weapons complex in your testimony and expressed specific concerns with 
the proposed year-long House CR that would cut in half the additional 
funding for Weapons Activities. This cut deeply concerns me, as well as 
the significant cut to nonproliferation-- $647M. How will these cuts 
impact our nuclear weapons complex overall modernization plans and how 
will these cuts affect the New START Treaty?
    Dr. Miller. Last November, the President announced his commitment 
to modernize the nuclear infrastructure, which supports our nuclear 
deterrent, and our nonproliferation efforts. The President's Fiscal 
Year (FY) 2011 budget request represents the first step towards that 
commitment. The proposed cuts, $624M for Weapons Activities and $647M 
for Nonproliferation Activities, would not have any direct effect on 
the New START Treaty, but they would delay much needed investments in 
our nuclear infrastructure, and reduce our ability to secure nuclear 
materials and prevent proliferation globally.
    Mr. Heinrich. I took particular interest in one of the 
recommendations the Commission presented which was that the President 
should designate the nuclear weapons laboratories as ``National 
Security Laboratories.'' Can you speak a little as to why this is 
important?
    Dr. Perry. The National Laboratories already perform a substantial 
amount of work for not just the Department of Energy, but also the 
Department of Defense and Homeland Security, and the Intelligence 
Community as well. This is beneficial for everyone concerned, but it in 
some sense shortchanges the Labs, because these other agencies can 
contract for services ``a la carte,'' without having a larger stake in 
the overall health of the Laboratory complex. The Posture Commission 
was quite explicit in its concerns over the health of the intellectual 
infrastructure of the Labs and believed that, as your question points 
out,

          The President should designate the nuclear weapons 
        laboratories as National Security Laboratories. This would 
        recognize the fact that they already contribute to the missions 
        of the Departments of Defense and Homeland Security and the 
        intelligence community in addition to those of DOE. The 
        president should assign formal responsibility to the 
        Secretaries of Energy, Defense, State, and Homeland Security 
        and the Director of National Intelligence for the programmatic 
        and budgetary health of the laboratories.
                America's Strategic Posture, Report of the 
                Congressional Commission on the Strategic Posture of 
                the United States, United States Institute of Peace 
                Press, 2009, p. 64.

    In a related recommendation, the Posture Commission also pointed 
out:

          To reinforce this designation, the Commission recommends that 
        the President issue an Executive Order formally assigning the 
        Secretaries of Defense, Energy, State, and Homeland Security 
        and the Director of National Intelligence joint responsibility 
        for the health of these laboratories. The White House should 
        establish an interagency process to accomplish this and ensure 
        that work in defense, homeland security, and intelligence is 
        assigned to the national laboratories, building on work already 
        in progress.
          Such a step is needed because that work already in progress 
        has brought home an essential lesson: elements of the federal 
        government outside DOE are keen to utilize the capabilities of 
        these laboratories but they are not keen to invest in the 
        underlying science and engineering that generates those 
        capabilities. As one expert has put it, the rest of the 
        government is anxious to buy wine by the glass, but no one 
        wishes to invest in the vineyard (Frances Fragos Townsend in 
        remarks at the Nuclear Deterrence Summit, December 3, 2008). 
        The Commission believes that this diversification of support is 
        the most--and perhaps the only--effective way to maintain the 
        excellence of the laboratories. But much more buy-in is needed 
        from outside DOE. What is required is not a series of small 
        projects but a few, large, sustained efforts that will support 
        capability building. To accomplish this objective would require 
        strong, high level support and, so far, this has been lacking. 
        The directors of the weapons laboratories have established the 
        following criteria for support from a broader range of 
        agencies: projects should be synergistic with the Laboratory 
        mission, of national importance, and done with excellence using 
        unique Laboratory capabilities. The Commission endorses these 
        criteria.
                America's Strategic Posture, Report of the 
                Congressional Commission on the Strategic Posture of 
                the United States, United States Institute of Peace 
                Press, 2009, p. 54.

    The revised designation for the Labs thus would reflect this 
broader national security reality and strengthen the programmatic and 
budgetary health of the Labs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING

    Dr. Fleming. General, since the closure of the Barksdale Weapons 
Storage Area in 2007, we have a single point of failure in the ALCM 
mission, a critical vulnerability that I have serious concerns about. 
As part of its Nuclear Roadmap, the Air Force reached the decision in 
2009 to re-certify the Barksdale WSA, going as far to request funding 
for the project in its Fiscal Year 2010 budget request. However, in 
testimony before the full committee on February 17th of this year, 
General Schwartz indicated that the Air Force does not intend to move 
forward with this project, citing concerns over its cost. At that time 
General Schwartz stated he was confident that Air Force Global Strike 
Command has a ``workable'' solution in place to mitigate training and 
readiness issues that result from having our nuclear bombers at 
Barksdale separated from nuclear munitions. While day-to-day readiness 
and proficiency are critically important, I remain more concerned about 
operational impacts--specifically impacts to STRATCOM's ability to 
execute Presidentially-directed OPLAN cruise missile missions.
    Can you describe in-detail STRATCOM's involvement, if any, in the 
initial assessment to re-certify the Barksdale WSA? If such an 
assessment were performed, were any conclusions made or courses of 
action recommended?
    General Kehler. Our involvement with the initial assessment to re-
certify the Barksdale WSA was in response to the Air Force's Nuclear 
Road Map and the reinvigoration of the nuclear enterprise effort. My 
staff conducted an internal look to determine the feasibility of 
reopening the Barksdale WSA. After reviewing the costs associated with 
sustainment of all WSAs, and evaluating the analysis conducted under 
the original 2006 PDM III study, which determined a single WSA at Minot 
AFB was feasible to meet our operational requirements, we decided the 
operational risk to meeting our OPLAN mission requirements was 
acceptable and decided not to pursue recertification of the Barksdale 
WSA.
    Dr. Fleming. Did the Air Force consult with STRATCOM prior to the 
Air Force making the decision not to move forward with the Barksdale 
WSA recertification? If so, did STRATCOM raise any concerns or 
objections regarding potential operational impacts of not recertifying 
the Barksdale WSA?
    General Kehler. Yes. The Air Force collaborated closely with us and 
the nuclear enterprise to ensure our operational requirements were a 
factor in the decision. As we worked through this decision process, we 
evaluated the potential operational and support risks to execution of 
our OPLAN, concluded the risk was acceptable, and did not submit any 
objections to this decision.
    Dr. Fleming. At any point in time did STRATCOM planners perform a 
vulnerability assessment related to consolidating the ALCM mission at 
Minot AFB?
    General Kehler. Yes. My staff was closely involved with supporting 
the 2006 Program Decision Memorandum-III (PDM-III) directed studies and 
assessments. We participated on the team responsible for assessing 
nuclear cruise missile force structure changes and developing missile 
consolidation options and ensured STRATCOM operational requirements 
were addressed throughout the process. The results of this study 
verified we could meet all operational requirements and execute all 
directed missions operating from a single WSA location.
    Dr. Fleming. Did the Commander of JFCC-GS raise any objections or 
concerns over consolidating the ALCM mission at Minot AFB?
    General Kehler. The ALCM fleet was consolidated at Minot AFB prior 
to the standup of Air Force Global Strike Command (AFGSC). Establishing 
a WSA at Barksdale would be operationally beneficial; however, we have 
achieved a workable solution to the USSTRATCOM mission by consolidating 
the ALCM at Minot AFB. This consolidation is due to the fact that the 
number of ALCMs have decreased; therefore, the initial workload since 
2007 has decreased. Accordingly, given the fixed variables of 
facilities, support equipment, and personnel, the current solution is 
meeting mission requirements.
    The ALCM mission is operationally viable today with the single WSA 
at Minot AFB. Discussion with the Commander of JFCC-GS at the time of 
consolidation revealed that concerns were captured as part of the risk 
analysis of this OSD budget driven decision. These concerns were over 
the pace and magnitude of Program Budget Directives (PBD) in terms of 
how fast the personnel and supply resources were drawn down in light of 
the responsibility to maintain safe and secure stewardship of the 
nuclear assets.
    Dr. Fleming. Did the Commander of AFGSC raise any objections or 
concerns over consolidating the ALCM mission at Minot AFB?
    General Kehler. The ALCM fleet was consolidated at Minot AFB prior 
to the standup of Air Force Global Strike Command (AFGSC). Establishing 
a WSA at Barksdale would be operationally beneficial; however, we have 
achieved a workable solution to the USSTRATCOM mission by consolidating 
the ALCM at Minot AFB. This consolidation is due to the fact that the 
number of ALCMs have decreased; therefore, the initial workload since 
2007 has decreased. Accordingly, given the fixed variables of 
facilities, support equipment, and personnel, the current solution is 
meeting mission requirements.
    Dr. Fleming. Does STRATCOM concur with the Air Force's decision not 
to move forward with recertifying the Barksdale WSA?
    General Kehler. Yes, I concur with the Air Force's decision. While 
two nuclear-certified WSAs would provide us greater operational 
flexibility, several other issues throughout the nuclear enterprise 
have higher priority funding shortfalls. I am confident we are able to 
execute all OPLAN ALCM mission requirements using one ALCM WSA. We have 
assessed the inherent vulnerabilities and risks associated with 
operating a single ALCM storage at Minot and I have determined they are 
manageable through force posturing, force management and planning 
considerations.
    Dr. Fleming. What mission impact assessments or risk assessments 
has STRATCOM conducted or participated in to examine the single ALCM 
location at Minot and whether any planned activities in the next few 
years will impact the ability of ALCM assets at Minot to support 
STRATCOM mission requirements? Please provide a summary of those 
assessments at the appropriate classification level and, if mission 
impacts or risks are identified, discuss how STRATCOM is mitigating 
these.
    General Kehler. [The information referred to is classified and is 
retained in the subcommittee files.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
